<html>
<title> - [H.A.S.C. No. 114-40]U.S.POLICY AND STRATEGY IN THE MIDDLE EAST</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                                
                           [H.A.S.C. No. 114-40]

              U.S. POLICY AND STRATEGY IN THE MIDDLE EAST

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JUNE 17, 2015


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                               ____________
                               
                               
                          U.S. GOVERNMENT PUBLISHING OFFICE
95-315                         WASHNGTON : 2016                          
               
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1a7d6a755a796f696e727f766a3479757734">[email&#160;protected]</a>  
                      
                      
                      
                      
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
PAUL COOK, California                MARK TAKAI, Hawaii
JIM BRIDENSTINE, Oklahoma            GWEN GRAHAM, Florida
BRAD R. WENSTRUP, Ohio               BRAD ASHFORD, Nebraska
JACKIE WALORSKI, Indiana             SETH MOULTON, Massachusetts
BRADLEY BYRNE, Alabama               PETE AGUILAR, California
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
STEVE RUSSELL, Oklahoma

                  Robert L. Simmons II, Staff Director
                 Kari Bingen, Professional Staff Member
                 Mike Casey, Professional Staff Member
                         Michael Tehrani, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Carter, Hon. Ashton B., Secretary of Defense.....................     4
Dempsey, GEN Martin E., USA, Chairman, Joint Chiefs of Staff.....     8

                                APPENDIX

Prepared Statements:

    Carter, Hon. Ashton B........................................    56
    Smith, Hon. Adam.............................................    53

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bridenstine..............................................    66
    Ms. Bordallo.................................................    65
    Mr. Coffman..................................................    66
    Mrs. Davis...................................................    65
    Ms. McSally..................................................    66
    Mr. Thornberry...............................................    65

Questions Submitted by Members Post Hearing:

    Mr. Coffman..................................................    71
    Mr. Shuster..................................................    69
    Ms. Speier...................................................    71
    Mr. Turner...................................................    69
    Mr. Walz.....................................................    72
              
.              
             U.S. POLICY AND STRATEGY IN THE MIDDLE EAST

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, June 17, 2015.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Before we proceed, I want to make clear up front that the 
committee will not tolerate disturbances in these proceedings, 
including verbal disruptions, photography, standing, or holding 
signs. And I want to thank all our guests at the outset for 
your cooperation.
    This committee meets today to hear from the Secretary of 
Defense and the Chairman of the Joint Chiefs of Staff on U.S. 
policy and strategy in the Middle East.
    I think we should acknowledge at the outset that this 
region is not subject to easy or simple solutions and has 
bedeviled statesmen of many countries for generations. Yet 
there is also a sense that we are at a particularly perilous 
time and that the U.S. policy and strategy is inadequate.
    Dr. Kissinger testified earlier this year before the Senate 
that in the Middle East multiple upheavals are unfolding 
simultaneously. There is a struggle for power within states, a 
contest between states, a conflict between ethnic and sectarian 
groups, and an assault on the international state system.
    He further argued that, especially in a time of global 
upheaval, the consequences of American disengagement is greater 
turmoil. It seems to me that that is what we are in fact 
witnessing.
    While President Obama admitted recently that there is not a 
complete strategy for dealing with ISIS [Islamic State of Iraq 
and Syria], others argue that there may well be a strategy at 
work here, one of retrenchment and accommodation so that the 
U.S. plays a lesser role in the Middle East and elsewhere.
    U.S. military personnel are the most capable in the world, 
but I know of no one who thinks that 450 more in Iraq under 
current constraints will turn the tide against ISIS. Very 
concerning to me are recent press reports that, in the midst of 
negotiations to remove sanctions related to its nuclear 
program, Iran is continuing to pay and equip the Taliban in 
Afghanistan as part of its regional efforts to sow instability 
and harm U.S. interests.
    When one factors in the chaos in Yemen and Syria, the 
uncertainty about the future direction of Turkey, the doubts 
about us from traditional allies such as Egypt and the Gulf 
nations, as well as continuing threats to our ally Israel, the 
plain, hard facts show that the situation in the Middle East 
has deteriorated substantially in the last 6 years. What is 
worse, there seems to be nothing coming from the White House to 
change that trajectory.
    We cannot expect our distinguished witnesses today to 
answer for all the failures of the administration's approach to 
the Middle East over the last 6 years. We can and should 
expect, however, to hear the military component of a strategy 
to reverse this deteriorating trend and to protect American 
interests.
    My view is that there is no substitute for American 
leadership in the Middle East or anywhere else. That does not 
mean it is up to us to solve age-old disputes, but it does mean 
we cannot afford, for our own sake, to simply stand back. We 
must be strong, especially militarily strong, and we must be 
credible.
    I yield to the ranking member.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    And I want to thank the Secretary of Defense and the 
Chairman of the Joint Chiefs for joining us today and for their 
great work for our country.
    And I think the chairman in his first of couple sentences 
there adequately described the depth of the problem, with the 
number of failed states and, gosh, just the, oh, different 
battles that are going on there. It is an overwhelming problem 
that is creating a huge humanitarian crisis and a threat not 
just to the region but to the globe.
    I will, however, disagree with the notion that a U.S. 
presence will solve the problem. I would hope that we would 
have learned over the course of the last 14 years of having a 
substantial U.S. presence in both Iraq and Afghanistan that the 
West showing up in the Muslim world and saying, ``We're here to 
solve your problems'' isn't going to get it done.
    And as far as the strategy is concerned, I believe we do 
have a strategy. I think what people are frustrated by is that 
that strategy, that U.S. strategy, does not simply solve the 
problem. And I have had a number of people complain to me about 
our lack of a strategy. I have asked every single one of them, 
okay, what should we do? Have not gotten an answer as to what 
we should do that would solve the complex problems that the 
chairman described.
    So, as we approach this, I hope that we are cautious about 
our confidence that U.S. military might can solve this problem, 
because I think that would make it worse and at great cost to 
us. What we have to do is tactically use the U.S. military to 
help the right people and move things in the right direction, 
not think that the more U.S. military we use, somehow the 
better the situation gets. I think that would be a very, very 
dangerous mistake.
    As far as the broader strategy, it is really simple on its 
face. We need to find Sunnis who are willing and able to fight 
ISIS and build a better alternative. And it is not just ISIS. I 
mean, if ISIS went away tomorrow, there would be, you know, 
another ideologically extremist, violent group, just like, you 
know, Al Qaeda still is, but now ISIS has seemingly eclipsed Al 
Qaeda. It is not just a matter of defeating one group; it is a 
matter of defeating an ideology.
    Now, the one thing I will quibble with and that I do want 
to hear from our two witnesses about our strategy is, in 
getting those Sunnis that would be willing to fight ISIS and 
present a more reasonable alternative in Iraq and Syria 
certainly but elsewhere, as well, for the people over there, we 
are still relying on the Baghdad government. It is still our 
hope that there will be an Iraqi Government that is 
sufficiently inclusive so that Sunnis will be willing to fight 
for it. I just don't see that happening.
    Starting with al Maliki, they set up a very sectarian, 
separatist government that did everything to shove the Sunnis 
into the arms of ISIS. Now, I have not met Abadi, but I have 
heard that he has a desire to change that. The trouble is the 
people below him have no desire to change that, and he does not 
have the power simply to make them--the Minister of Defense, 
the Minister of Interior, the various Shia militias, Iran--
change their minds. So, as we continue to try and do that, I 
fear that strategy won't work.
    Now, I know why we do it, because what is the alternative? 
How do we offer the Sunnis, you know, a reasonable place to be 
if they don't have some support from Baghdad? But I think we 
need to start thinking about it. I think we need to put a lot 
of pressure on our Gulf allies, like Saudi Arabia, like the UAE 
[United Arab Emirates], to say, ``Look, these are your people. 
The Baghdad government has abandoned them. You don't want ISIS 
to be the alternative. What can you do to encourage the tribes 
in Syria and in Iraq to turn on ISIS?'' It is not easy.
    And, again, I will just close by saying, you know, we could 
drop 200,000 U.S. troops in the middle of this; it wouldn't 
solve the problem. And I sincerely hope we have learned that 
lesson and that we don't go deeper and deeper into that, you 
know, costing more lives and more treasure while only making 
the problem worse.
    Because the bottom line is, for all of their faults and 
failings, the one dependable argument that groups like Al Qaeda 
and ISIS have with the Muslim world is to stand up and say, 
``We are defending the Muslim world against Western 
aggression.'' That is a message that has widespread support, 
far more support, certainly, than the violent, psychopathic 
groups that espouse it. We cannot contribute to that.
    We have to find a way to build partnerships. This has to be 
locally driven--locally driven by Sunnis in Iraq and Syria and 
elsewhere to eject ISIS, to eject that ideology, and build a 
better future for their people. And that is no easy task, I 
understand.
    But I do look forward to the testimony and the questions, 
and, hopefully, we can learn more about how to go about being 
part of that solution.
    With that, I yield back.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 53.]
    The Chairman. Thank you.
    Without objection, your complete written statements will be 
made part of the record. Again, thank you both for being here.
    Mr. Secretary, the floor is yours.

    STATEMENT OF HON. ASHTON B. CARTER, SECRETARY OF DEFENSE

    Secretary Carter. Chairman Thornberry, Ranking Member 
Smith, all members of the committee, thank you for inviting me 
here today. Thank you also for keeping a wide-ranging and long-
term perspective on the challenges and opportunities for 
America and its leadership around the world.
    Just a couple of weeks ago, I was in Singapore, Vietnam, 
and India. And next week I will be in Germany, Estonia, and 
Belgium for a NATO [North Atlantic Treaty Organization] 
ministerial. I understand that your focus in this hearing is 
current developments in the Middle East, but I would be happy 
to answer questions about anything else.
    The Middle East, as the chairman noted, is undergoing a 
period of great social and political turmoil, with a number and 
variety of crosscutting geopolitical developments. Our strategy 
in the region, America's strategy, is grounded in America's 
core national interests. That is the foundation, tailored to 
address specific circumstances in specific and various places: 
Iraq, Syria, Iran, and so forth. And it leverages American 
leadership with the efforts of a coalition of allies and 
partners.
    Our core interests, for example, drive our actions to 
prevent Iran from acquiring a nuclear weapon. Similarly, they 
dictate that we not let up until we have destroyed ISIL 
[Islamic State of Iraq and the Levant]--and Al Qaeda-affiliated 
terrorists throughout the region that pose dangers to----
    The Chairman. The Chair notes there is a disturbance in the 
committee's proceedings. The committee will be in order.
    Pardon the interruption, Mr. Secretary. Please proceed.
    Secretary Carter. Similarly, our core interests dictate 
that we not let up until we have destroyed ISIL- and Al Qaeda-
affiliated terrorists throughout the region that pose dangers 
to the homeland, to friends, and to allies.
    The past few weeks serve as a reminder to terrorists bent 
on harming the United States and our interests, whether they 
are in Libya, Syria, or Yemen, that we have the capability to 
reach out and strike them.
    Meanwhile, the security of Israel will always be one of my 
top priorities. And the Chairman just returned from Israel this 
past weekend. And we will continue to hone important security 
relationships with our partners in the Gulf, bolster their 
security, and ensure freedom of navigation there.
    The pursuit of our Nation's core interests in the region is 
a strategy based on tireless diplomacy backed by formidable 
military power and dedicated capacity-building to buttress and 
leverage the contributions of others and especially, as noted, 
those in the region themselves.
    That is why we have 35,000 forces postured throughout the 
region, enabling us to strike ISIL and Al Qaeda terrorists and 
check Iranian malign influence. That is why we are assuring 
Israel's continued qualitative military edge and why we are 
working with our Gulf partners to make them more capable of 
defending themselves against external aggression. That is why 
we are supporting Saudi Arabia and protecting its territory and 
people from Houthi attacks and supporting international efforts 
to prevent uranium shipments of lethal equipment from reaching 
Houthi- and Saleh-affiliated forces in Yemen. And that is why 
the United States is supporting efforts to pursue political 
settlements to crises throughout the region, from Yemen to 
Libya to Syria.
    While I am prepared for a range of questions related to 
DOD's [Department of Defense's] role in the Middle East, I 
would like to focus on the immediate issue that I understand 
the committee is interested in, namely, the U.S.-led 
coalition's strategy to defeat ISIL.
    ISIL presents a grave threat to our friends and allies in 
the Middle East; elsewhere around the world, from Africa and 
Europe to parts of Asia, because of its steady metastasis; and 
to our homeland because of its avowed intentions to strike and 
recruit in this country. ISIL must be and will be dealt a 
lasting defeat.
    The strategy to degrade and ultimately defeat ISIL 
constructed by President Obama draws upon all the national 
security agencies of the U.S. Government: intelligence, law 
enforcement, diplomacy, and others. The strategy and its 
associated military campaign also involve a global coalition, 
reflecting both the worldwide consensus on the need to counter 
this threat and the practical requirement for others to do 
their part. And the counter-ISIL strategy has nine --nine so-
called lines of effort, reflecting the breadth of this 
challenge and the tools needed to combat it.
    The first and most critical line of effort is the political 
one, which is led by the State Department. In Iraq, this 
involves building more effective, inclusive, and multisectarian 
governance. Each of the other lines of effort requires success 
in this line because it is the only way to create support among 
local forces and local people, that support being necessary to 
make progress against extremism stick.
    The next two lines of effort are interconnected: to deny 
ISIL safe haven and to build partnership capacity in Iraq and 
Syria. Both are led by the Department of Defense, which, 
alongside coalition partners, is conducting a bombing campaign 
from the air, advising and assisting Iraqi security forces on 
the ground, and training and equipping trusted local forces.
    I will address our military's current execution of these 
two lines of effort in a moment, but I want to underscore a 
crucial point about our campaign in Iraq and also Syria: It 
requires capable, motivated, legitimate, local ground forces to 
seize, clear, and hold terrain. That is the only way to ensure 
a truly lasting, enduring defeat of this movement.
    The fourth line of effort is enhancing intelligence 
collection on ISIL, which is led by the National 
Counterterrorism Center [NCTC].
    The fifth line of effort, which is disrupting ISIL's 
finances, a vital task, is co-led by Treasury and State.
    Lines of effort six and seven, both co-led by State and the 
National Counterterrorism Center, are to counter ISIL's 
messaging and to disrupt the flow of foreign fighters to and 
from ISIL, both of which are critical in today's connected and 
networked world.
    The eighth line of effort, providing humanitarian support 
to those displaced by or vulnerable to ISIL, is led by State.
    And, finally, the Department of Homeland Security [DHS] and 
the FBI [Federal Bureau of Investigation] are working together 
to protect the homeland, the nine--ninth so-called line of 
effort, by disrupting terrorist threats here.
    The effective execution of all nine of these lines of 
effort by the United States and its coalition partners is 
plainly necessary to ensure overall success.
    Let me turn to the execution of DOD's two lines of effort, 
beginning with the U.S.-led campaign of airstrikes against ISIL 
in Iraq and Syria. This effort has produced some clear results 
in limiting ISIL's freedom of movement, constraining its 
ability to reinforce its fighters, and impeding its command and 
control. It has enabled some key achievements for local forces, 
including the very recent success of anti-ISIL forces who took 
the key town of Tal Abyad.
    The strikes are also buying critical time and space to 
carry out DOD's second line of effort, which is developing the 
capacity and capabilities of legitimate local forces. The 
ground campaign is a work in progress. The Iraqi security 
forces were severely degraded after Mosul fell last June, when 
four divisions dissolved. The combination of disunity, 
deserters, and so-called ghost soldiers, who are paid on the 
books but don't show up or don't exist, had greatly diminished 
their capacity.
    However, understanding these challenges does not change 
reality. ISIL's lasting defeat still requires local forces to 
fight and prevail on the ground. We can and will continue to 
develop and enable such local forces, because we know from 
experience that putting U.S. combat troops on the ground as a 
substitute for local forces will not produce enduring results. 
That is why DOD seeks to bolster Iraq's security forces to be 
capable of winning back and then defending and holding the 
ISIL-controlled portions of the Iraqi state.
    What we saw in Ramadi last month was deeply disappointing 
and illustrated the importance of a capable and motivated Iraqi 
ground force. In the days that followed, all of us on the 
President's national security team, at his direction, took 
another hard look at our campaign across all nine lines of 
effort. At DOD, I convened my team before, during, and after my 
trip to the Asia-Pacific and Indian Ocean region to examine our 
execution of DOD's lines of effort and prepare options for the 
President if his approval was required for any enhancements we 
identified.
    In our meetings at both the White House and the Pentagon, 
we determined that, while we have the right strategic 
framework, execution of the campaign can and should be 
strengthened, especially on the ground. We determined that our 
training efforts could be enhanced, and thus are now focusing 
on increasing participation in and throughput of our training 
efforts, working closely with the Iraqi Government and 
stressing the focus on drawing in Sunni forces, which, as 
noted, are underrepresented in the Iraqi security forces [ISF] 
today.
    We also determined that our equipping of the Iraqi security 
forces had proceeded too slowly. This process was earlier 
sometimes delayed by bureaucracy in Baghdad but also in 
Washington. That is why we are now expediting delivery of 
essential equipment and materiel, like anti-tank capabilities 
and counter-IED [improvised explosive device] equipment, to the 
Iraqi security forces, including Kurdish and Sunni tribal 
forces.
    We also determined that we could enable Iraqi security 
forces with more tailored advice and assistance, including with 
critical outreach to Sunni communities. That is why, on advice 
from Chairman Dempsey and General Austin, and at my 
recommendation, last week President Obama authorized the 
deployment of 450 personnel to Iraq's Taqaddum military base in 
Anbar province, to establish an additional site where we could 
advise and assist the Iraqi security forces.
    Situated between Ramadi and Fallujah, Taqaddum is a key 
location for engaging Sunni tribes. And Prime Minister Abadi, 
Iraqi military officials, and Sunni leaders have all committed 
to using Taqaddum to reinvigorate and expedite the recruitment 
of Sunni fighters.
    Our forces will also provide much-needed operational advice 
and planning support to the Iraqi security forces' Anbar 
Operations Center, which is also located at Taqaddum. We expect 
that this move will open a new dimension in our and Iraq's 
efforts to recruit Sunnis into the fight and to help the Iraqis 
coordinate and plan the critical effort to roll back ISIL in 
Anbar province.
    And Secretary Kerry and I have agreed to begin a process of 
continually assessing the execution of our campaign, starting 
with improving coordination across our respective lines of 
effort.
    Execution, however, is a two-way street, and our training 
efforts in Iraq have thus far been slowed by a lack of 
trainees. We simply haven't received enough recruits. Of the 
24,000 Iraqi security forces we had originally envisioned 
training at our 4 sites by this fall, we have only received 
enough recruits to be able to train about 7,000, in addition to 
2,000 Counter Terrorism [CT] Service personnel.
    As I have told Iraqi leaders, while the United States is 
open to supporting Iraq more than we already are, we must see a 
greater commitment from all parts of the Iraqi Government.
    There are positive sides. I have met with Prime Minister 
Abadi, Iraqi Kurdistan Regional President Barzani, and just 
last week with Speaker Jabouri of Iraq's parliament. They all 
fully understand the need to empower more localized, 
multisectarian Iraqi security forces and address persistent 
organization and leadership failures.
    And because a sovereign, multisectarian Iraq is more likely 
to ensure a lasting defeat of ISIL, the United States must 
continue working with and through the Iraqi Government in all 
our actions, including our support for Kurdish and Sunni tribal 
forces. Our efforts need to reinforce inclusivity and 
multisectarianism, not fuel a reversal to sectarianism, which 
would make the lasting defeat of ISIL harder, not easier.
    The situation in Syria is even more complex because of the 
lack of a legitimate government partner and many competing 
forces there. Regardless, we will continue striking ISIL in 
Syria with the long reach of our airstrikes and operators. We 
will continue working with Syria's neighbors to impede the flow 
of foreign fighters into and out of Syria and Iraq. Our train-
and-equip mission in Syria has been challenging, but the 
requirement for a capable and motivated counter-ISIL ground 
force there also means we must persist in our efforts.
    In conclusion, I believe that success in this campaign can 
and must be assured. It will take time and require consistent 
effort on everyone's part--the entire U.S. Government, our 
entire international coalition, and, most importantly, the 
Iraqi and Syrian peoples. Together, and with your support, 
including your support for America's troops and their families, 
for which I and they are ever grateful, we will achieve ISIL's 
lasting defeat.
    I would be happy to address your questions.
    [The prepared statement of Secretary Carter can be found in 
the Appendix on page 56.]
    The Chairman. Thank you.
    General Dempsey, you have already had a number of 
interactions with this committee in the first 6 months of this 
year, for which we are very grateful. And that is the reason, 
as I told you before the hearing, I am not going to say goodbye 
to you, even though the date of your retirement approaches.
    So thank you for being here. The floor is yours.

STATEMENT OF GEN MARTIN E. DEMPSEY, USA, CHAIRMAN, JOINT CHIEFS 
                            OF STAFF

    General Dempsey. Thank you, Chairman. It is good to be 
back, in particular to talk about a subject of this importance.
    And, Ranking Member Smith, it is good to see you back in 
the fight personally. I know you have been in the fight from a 
distance.
    And, other members of the committee, I really do appreciate 
the opportunity to be here this morning to discuss the 
increasing disorder and the military component of our strategy 
in the Middle East.
    The Middle East is unpredictable, unstable, and 
increasingly complex, but our goals are quite straightforward. 
We seek a region that is inhospitable to our enemies and that 
promotes and protects our core national interests.
    I characterize the current environment in the Middle East 
in terms of three converging sets of complexity.
    First, several governments are struggling for political 
legitimacy because they are not sufficiently pluralistic or 
they are not sufficiently accountable to their citizens. Iraq, 
for example, is still working toward a national unity 
government.
    Second, the centuries-old Sunni-Shia rivalry has come to 
the fore. Weak states are less able to assert independence amid 
the tug of war between sectarian regional powers.
    And, third, internal to Islam, we see rising competition 
between moderate elements and radical elements, and into that 
space fits ISIL and others.
    These three challenges, as they intersect, make for an 
environment that will test the resolve of the region's security 
forces. Enduring stability cannot be imposed from the outside 
in. Stability must be cultivated from the inside out, and 
importantly, owned by regional stakeholders. Positive 
transformation of the region will be achieved over time by, 
with, and through our regional partners.
    Within this context, the role the United States military is 
taking against the transregional threat of ISIL represents, in 
my judgment, an appropriate level of effort.
    I would underscore, as Secretary Carter also emphasized, 
that the military is one component of a much broader strategy. 
Military power alone will not solve this. I don't think anybody 
in here would disagree with that. We own two lines of effort of 
nine.
    Of our two lines of effort, one is kinetic, the combination 
of airstrikes and ISR [intelligence, surveillance, and 
reconnaissance] to enable Iraqi security forces; and the other, 
which is actually the centerpiece of our military strategy, is 
the train-and-equip mission.
    The nine lines of effort should be considered in the 
aggregate. This campaign focuses on building partners who are 
taking responsibility for their own security. As I have said 
before, this is an Iraq-first strategy enabled by the coalition 
but not an Iraq-only one and, again, certainly not a military-
only one. We continue to pressure ISIL in Syria and to actively 
reinforce and harden our partners in the region.
    I would also like to emphasize that we are at the beginning 
of a complex--at the beginning of a complex, nonlinear campaign 
that will require a sustained level of effort over an extended 
period of time to promote durable, regional stability over the 
long term. We are constantly evaluating our approach and making 
sure we are resourcing it appropriately, balanced with our many 
other global commitments.
    Let me again thank this committee for what you do every day 
to support our men and women in uniform and their families who 
are serving around the world. Thank you very much.
    The Chairman. Thank you, sir.
    Mr. Secretary, let me just follow up on what General 
Dempsey said. A primary line of effort of the Department is 
this train-and-equip mission. Is it your judgment that 450 more 
folks, not all of whom will be trainers--some are security and 
so forth. But are these 450 more folks going to tip the balance 
to make that train-and-equip mission successful?
    Secretary Carter. The move in Taqaddum, the numbers are not 
as significant as the location. It is in the heart of Sunni 
territory, and I think it will make a big difference in the 
performance of the train-and-equip program as regards 
recruiting Sunni fighters. We are actually seeing that in the 
days since we established that presence there.
    Also, the Anbar Operations Center of the Iraqi security 
forces is located at Al Taqaddum. And another function of those 
people being there--doesn't take a lot of people but is highly 
leveraged--is to be in the Anbar Operations Center with the 
Iraqi forces so that we can help them with their command and 
control, planning, and discipline.
    So those are the purposes, those are the benefits of the 
move to Taqaddum. It is necessary--it is not sufficient, but it 
is necessary to get Sunni forces into the fight in a way so 
that they are motivated as well as trained and equipped. And 
that is its purpose, Mr. Chairman.
    The Chairman. So what is the reasonable time period for us 
to check back and see whether this is working as we hope?
    Secretary Carter. I honestly think it is reasonable for you 
to ask in weeks, because we are already getting an inflow of 
Sunni fighters. We will put them through the training program. 
We have the capacity to do that.
    As I mentioned in my testimony, we have had unused capacity 
in our train-and-equip sites in parts of Iraq over the last 
several months because the Iraqi Government hasn't furnished us 
with paid recruits. Now that is turning around. It has to stay 
turned around for us to have success in Anbar and elsewhere in 
Sunni parts of Iraq.
    The Chairman. Thank you.
    Let me ask one other question. As you mentioned, I think a 
lot of members will have questions about the ISIS fight. I want 
to ask about the strategy to deal with Iranian influence 
outside the nuclear talks. So we will set the nuclear talks 
aside.
    I mentioned in my opening statement these press reports 
about the Iranians equipping and paying the Taliban, who are 
fighting us and our allies in Afghanistan. We know that they 
are providing tremendous support to the Houthis in the civil 
war or whatever one wants to call it that is going on in Yemen. 
They are the primary force propping up Assad in Syria. They 
continue to have a presence in Lebanon, which is not good.
    What is the administration's strategy for dealing with 
Iranian influence other than the nuclear talks?
    Secretary Carter. Well, thank you.
    And Iranian malign influence in the region is the other 
major challenge in--to our strategy in the Middle East besides 
ISIL. So those two stand above others.
    And I think--I would go back to the foundation there, which 
is the checking that malign influence. And defending our ally 
Israel and keeping our security commitments to our Gulf 
partners, who were here in town a few weeks ago, is the reason 
why there are 35,000 U.S. forces based in the Middle East. It 
is to provide that foundation of security for our friends and 
allies and to check Iranian malign influence, which, as you 
indicated, one sees them seeking--Iraq we have just been 
talking about, but it is not just in Iraq. It is elsewhere 
around the region.
    So it is another very significant challenge for us, and it 
really is the reason why we are postured in the way we are in 
the Middle East.
    The Chairman just got back from Israel, by the way, and he 
has been working with our Israeli partners on exactly those 
kinds of checks.
    The Chairman. Well, I appreciate the fact we have folks 
over there. I still haven't heard quite an approach, because it 
seems to me like their influence is expanding, and I am not 
sure we are dealing with it.
    I will yield to Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    The chairman and I met last week with the Sunni leader of 
the Iraqi Parliament. And one of the things he said during our 
meeting that surprised me a little bit--as we were talking 
about, you know, the difficulty of getting broader support from 
the Baghdad government and, sort of, shifting focus to where 
could the Sunnis, in that path between, sort of, Anbar and up 
into Syria, where ISIL is, you know, most dominant, and he 
expressed disappointment, frankly, that the other Gulf states--
Saudi Arabia, UAE, or even Turkey, to go up north--did not seem 
to really be willing to provide much support--even Jordan, as 
well--for the Sunnis in that area.
    Number one is, do you agree with that assessment? I tend to 
take this guy at his word.
    And, number two, why? It would seem to me that, you know, 
defeating ISIL is something that would be very, very important 
to Saudi Arabia amongst the others there. Why aren't they doing 
more to help those groups that want to resist ISIS in that part 
of Iraq and Syria?
    Secretary Carter. That is a critical question, and it goes 
back to something you said in your opening statement about 
other Sunni and Arab forces countering ISIL.
    And I, too, met with Mr. Jabouri last week, who said the 
same thing. And I think he was speaking on behalf of a number 
of the Sunni forces, political forces, in western Iraq who 
would like to see more support and recognize, as I think you 
noted and the chairman noted in their opening statement, that 
Americans and Westerners are--can lead and enable, but if they 
get too high a profile, that becomes a problem in its own 
right.
    Mr. Smith. Exactly.
    Secretary Carter. Therefore, all the more reason to get 
others--Sunnis involved in the fight.
    Now, one thing I will note is the heads of state of the GCC 
[Gulf Cooperation Council] were here in Washington, and we went 
to Camp David about 3 weeks ago. And I would say that this was 
one of the major themes of our conversations with them, the 
other one being, to get back to what the chairman said, 
checking Iranian malign influence, which they are also 
concerned about.
    Their concern about ISIL is genuine, but their actions, I 
think, can be greatly strengthened. And that was one of the 
principal things we talked about, getting them----
    Mr. Smith. But, again----
    Secretary Carter [continuing]. In the train-and-equip 
program--sorry?
    Mr. Smith. Yeah, I got all that. But why? Why isn't--I 
mean, in your opinion, having worked with these people, why 
isn't it happening?
    Secretary Carter. Well, one reason is that they simply lack 
the capacity. And so we talked a lot about building special 
operations forces that had counter--as opposed to air forces. 
We have enough air forces; we are looking for ground forces. 
And capable ground forces is one that are skilled in 
counterterrorism, counterinsurgency, and so forth.
    In general----
    Mr. Smith. And that is one of the key questions. Sorry to 
interrupt. But that is where we have to go, and that is where--
you know, we have this fight, we had this fight in the Senate 
and also on the House side, over whether or not to directly arm 
the Kurds, to basically skip the Baghdad government and just 
get the forces--the people who are actually fighting, and in 
some cases fighting successfully.
    You know, shouldn't we be shifting a lot of our focus to 
that and basically saying to Baghdad, time's up? You know, you 
have your relationship with Iran, with the Shia militias; 
doesn't seem to be much we can do about that. You continually 
push the Sunnis out. We got to shift our resources to people. I 
mean, you mentioned it. You expected 24,000 Iraqis. You got 
7,000. I mean, at what point do we shift the strategy?
    And believe me, I understand the implications of that. You 
know, the concern is about the fracturing of Iraq. But, as I 
have said many times before, that cow has left the barn. Iraq 
is fractured. You can make a pretty powerful argument, in fact, 
that Iraq is no more.
    So when do we shift that strategy and start building the 
capabilities of other partners who will fight?
    Secretary Carter. Well, sectarianism in Iraq is the 
principal factor that brought us to where Iraq is----
    Mr. Smith. Exactly.
    Secretary Carter [continuing]. In ISIL. It was Prime 
Minister Maliki and his relentlessly partisan or sectarian 
manner of governance.
    Now, we have in Prime Minister Abadi, with whom I have met 
and the chairman may have met also but certainly mentioned, 
someone who I believe is genuinely committed to behaving in a 
decentralized, federalized, if you like, but multisectarian 
single state. Personally, he is dedicated to that.
    Mr. Smith. Yes.
    Secretary Carter. I think the chairman asked the question, 
does his writ run throughout Iraq. And that is what we are 
waiting to see.
    In the meantime, we are arming the Kurds, we are arming the 
Sunnis. We do it in coordination with the Iraqi Government but 
in a way that doesn't delay, as it was a few months ago, that 
assistance to them. But we are still doing it through the 
Government of Iraq [GOI] because we are still trying to support 
the Prime Minister in maintaining a decentralized but single, 
unitary Iraqi state.
    Mr. Smith. And just a quick thing on Iran. And, obviously, 
I mean, if we just had these extremist Sunni groups to fight, I 
mean, that would be enough to really challenge us. But then 
when you throw in Iranian influence and how it, you know, stirs 
up the region, it definitely creates a higher-level problem.
    But I do just want to make the observation, as awful as 
Iran is, number one, this isn't really necessarily helping 
them, to have to fight multiple wars outside of their own 
borders, to have to fight in Syria, to fight in Iraq, to fight 
in Yemen. That can be draining, as we well know. So that has a 
negative influence on them, as well.
    And whatever one may say about Iran, the difference between 
them and ISIL, ISIL wants to kill as--they wake up every 
morning, you know, anxious to kill as many Americans as 
possible.
    So, as we are balancing this, it is a very difficult 
balance to make--you know, defeating ISIL, I think, should be 
at the top of that list of concerns. That is just an 
observation.
    As bad as Iran is--and trying to figure out some way to get 
them to stop having that malign influence, all for it. But I 
think we really need to have our number one focus not just, 
again, on ISIL but on that broader ideology that motivates 
people to attack us.
    Final quick question. There have been some reports that, 
you know, the Assad government is weakening. Where do you 
assess the chances that they might just fall, that Assad might, 
you know, he is unable to replace many of the troops that he is 
losing now. Is it possible that Assad just up and leaves 
because of how bad things are going? And then what?
    Secretary Carter. Two observations on that, and then the 
Chairman may want to comment on that, as well.
    I mean, first of all, we would like to see a transition in 
which Assad disappeared from the scene so that his regime as 
another source of fuel for extremism is eliminated. That is 
possible because his forces are much weakened, and they have 
taken great losses. They are having trouble--their forces and 
their reserves are depleted, and they are increasingly isolated 
in the Damascus area and in the Alawite areas of northwestern 
Syria.
    I think the last thing I would say, Congressman Smith, is 
that the best way for the Syrian people for this to go would be 
for him to remove himself from the scene and there to be 
created, difficult as that will be, a new government of Syria 
based on the moderate opposition that we have been trying to 
build and support and then helping them strengthen themselves 
to retake all of Syrian territory. That would be a desirable 
path if he was removed from the scene or removed himself from 
the scene.
    Mr. Smith. Thank you.
    General Dempsey. Thanks, Ranking Member Smith.
    That was my purpose to my trip to the region, actually, was 
to discuss with regional partners a scenario in which the 
regime would either collapse or Assad would depart for one 
reason or another.
    And it is generally the consensus there that, in the near 
term, it is probably more likely that the regime would go over 
to the defensive and limit its protection of the Alawite Shia 
and some of the minority groups, leaving the rest of Syria 
essentially ungoverned or governed in ways that wouldn't be 
positive for the region in the near term. And so we are working 
with our partners on the near term.
    Mr. Smith. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    General, the country owes you a great deal of gratitude, 
but I only have 5 minutes, so I am just going to say thank you 
for all that you have done for us.
    And, Mr. Secretary, thank you for being here today.
    We are talking about policy and strategy in the Middle 
East. And one thing that I find a little disconcerting from 
people I talk to is when we find individuals who have held your 
job in the past as Secretary of Defense who indicate, rightly 
or wrongly, that the President's heart may not always be in 
some of our military operations. It is also disconcerting when 
we hear the President, rightly or wrongly, suggest that we may 
have no winning strategy in the Middle East.
    But it is also disconcerting as a committee, we are not 
always in the policy and strategy business, but we are in the 
resourcing and capability business here. And we look at just 
some of the gaps we have. We know that we are going to have a 
gap this year for our carriers, where we will have certain 
regions of the world that will not have a carrier presence for 
weeks, when we perhaps need one or two. We also know that, in 
2007, the Navy was able to meet 90 percent of our COCOM 
[combatant command] validated requirements. This year, we will 
only meet 44 percent. We have had testimony from the Air Force 
that they currently have the oldest and the smallest Air Force 
since the history of the Air Force and that less than 50 
percent of their combat squadrons are fully combat capable.
    So this committee, on a very bipartisan basis, has worked 
very, very hard to try to close some of those gaps, to reach 
some of the numbers that you need. We voted out an NDAA 
[National Defense Authorization Act] bill 269 to 151; this 
committee voted it out 60 to 2. We have passed a defense 
appropriations bill 278 to 149. By all likelihood, it looks 
like a conference report will come out and those bills will be 
before the President in September of this year.
    You probably know we have 12 appropriations bills. The 
first one up before the President will probably be the defense 
bills, and the President will have 11 days to sign them.
    Now, you were kind enough, on an unsolicited basis, the 
last time you were here, to suggest to us what your 
recommendation would be to the President about vetoing bills. 
Now that you actually have a real bill to look at and to 
analyze, which helps fill some of those gaps, can you tell us 
whether or not you would recommend that the President veto that 
bill if it is substantially the same bill that has passed on a 
bipartisan basis out of the House, both on the NDAA and the 
approps [Appropriations Committee] bill?
    Secretary Carter. Thank you, Congressman.
    And let me just second what you said about the Chairman. He 
has been my battle buddy now for a number of years as I had 
various jobs and he was Chairman and, before that, Chief of 
Staff of the Army. I am very much going to miss him; he has 
been terrific.
    You are absolutely right about resources. We cannot 
continue to be the world's finest fighting force if we don't 
get a budget picture and horizon in front of us.
    I haven't changed my view from last time I saw you. I 
really, fervently hope, and this isn't something I am skilled 
in, and I won't be part of the deliberations within the 
Congress, but I fervently hope that everybody can come 
together, both parties obviously----
    Mr. Forbes. Mr. Secretary, I don't want to cut you off. I 
just have a minute and some left.
    Here is my point. We don't always get to pick the bills we 
hope that we can have. I am saying, if a bill comes 
substantially the same as the NDAA bill and the defense approps 
bill that passed the House, would you recommended to the 
President that he sign that bill or that he veto that bill?
    Secretary Carter. The President has already said that he is 
going to veto the bill----
    Mr. Forbes. No, I am asking your recommendation because you 
gave us a recommendation----
    Secretary Carter [continuing]. And I support that.
    Mr. Forbes. So you would recommend that he veto those 
bills?
    Secretary Carter. He has already determined that he is 
going to veto the bill, and I support----
    Mr. Forbes. But you would recommend that?
    Secretary Carter. I want to----
    Mr. Forbes. Now, let me ask you this. Have you done an 
analysis of the risk that would put to national defense? 
Because the result of that would be that you would get at least 
$25 billion less.
    Secretary Carter. Let me describe the risk going 1 year at 
a time in budgeting.
    Mr. Forbes. No, no. I am just asking the difference 
between----
    Secretary Carter. Well, I know what you are asking, but I 
would like to----
    Mr. Forbes. So you are not prepared to----
    Secretary Carter [continuing]. Address what the, sort of, 
herky-jerky approach to our budget is. It is managerially 
harmful to do things----
    Mr. Forbes. Mr. Secretary, you will have $25 billion short 
if that bill fails, but you would still take that risk and, by 
the way, that risk would put us, according to General Dempsey, 
at a place where we would be below the minimum edge of what we 
need for our national security.
    And let me just end up, Mr. Chairman, by saying this. I 
think it is unimaginable that we would send 450 troops into 
harm's way and still look their families in the eye and tell 
them and their families we would veto a bill that would get 
them the resources they need.
    And, with that, I yield back, Mr. Chairman.
    The Chairman. The time of the gentleman has expired.
    Mrs. Davis.
    Mrs. Davis. Thank----
    Secretary Carter. Mr. Chairman, I would just like to 
reiterate that I haven't changed my view. We need a multiyear 
defense budget. We have a strategy that is a long-term 
strategy. We have people, the very people that Congressman 
Forbes just referred to, who have careers, who want to know 
what their future is going to be.
    And this business where we have a budget 1 year at a time--
and I am not blaming anybody for it. I realize it is a 
collective thing, where our country needs to rise up and get it 
together in this area. I am just telling you, it is very 
damaging to the institution that I feel responsible for and am 
responsible for.
    And the other thing I would say is I travel around the 
world, and this is--this looks terrible. It gives the 
appearance that we are diminishing ourselves because we can't 
come together behind a budget year in and year out.
    And so I continue to hope and believe that we can come 
together behind an agreed budget that has a multiyear horizon 
and allows us to plan and execute programs and recruit and 
retain people in the way that I think we need to do.
    Thank you.
    The Chairman. Mr. Secretary, I don't disagree with anything 
you just said. When we vote, it is yes or no. And I think that 
is the point on the veto; it's a yes or no. And so that is the 
thing that I think is concerning to me.
    Mrs. Davis.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman.
    And thank you both for being here.
    And, of course, General Dempsey, I greatly appreciate your 
service and all you have contributed.
    And I think, you know, there is obviously controversy and 
concern about your response. I appreciate the fact that it is a 
direct response and that we would like everyone, actually, to 
get to ``yes'' on this one. And we have to work harder on it. 
So thank you very much.
    I wanted to first just ask about what you talked about as 
the first critical line of effort, really here, which, as you 
say, is a political one. And my concern is that, with limited 
security that we have, I am not sure that the State Department, 
even if they had the resources--and I think we could--you know, 
that is obviously a very great concern if they are really able 
to do their job in Iraq. So I would like you to respond to 
that.
    And along with that really does go the fourth line, which 
is how we communicate and whether we were doing that 
effectively. Those are two important things.
    And the third thing I just wanted to ask you about briefly 
is, you know, the issue about resources. And you mentioned the 
fact that we need to expedite delivery of equipment, that we 
weren't doing a good job with that.
    I think my question is, why did that take so long? There 
are issues around, certainly, Baghdad, as you mentioned, but 
within our own policies, as well. What are we learning from 
that so that that really doesn't happen in the future?
    Thank you, sir.
    Thank you, General.
    Secretary Carter. Thank you.
    On the political front, which really means trying to 
support Prime Minister Abadi and the Government of Iraq to 
govern in a way that it can collect in support from Sunnis, 
collect in support from Kurds, and collect in support from 
Shiites who are not affiliated with or directly supported by 
Iran, and create an Iraqi security forces that can defeat ISIL 
and turn Iraq into a place where people can live in a decent 
way, that is an essential task.
    And we need to align that very closely with the military 
line, which is why I mentioned that Secretary Kerry, who has 
just come back into town, and I are meeting and our teams are 
meeting specifically to make sure that those lines of effort, 
our two and his, are synchronized.
    Messaging: I would only make one note about messaging, 
which is an area where I think we are unnecessarily hobbling 
ourselves.
    We, for example, had a Web site; CENTCOM [Central Command] 
had a Web site, which simply described the facts of our 
campaign and what was going on. It was tuned for an audience in 
the region so that they could come to a Web site and learn 
about what we were doing, telling the truth. But we were denied 
the authority to operate that and told that that was not an 
appropriate thing for the Department of Defense to be doing. I 
would like to be able to have that authority.
    With respect to----
    Mrs. Davis. And, sir, I am sorry. Denied the authority 
from?
    Secretary Carter. By Congress.
    Mrs. Davis. Okay. Thank you.
    Secretary Carter. With respect to training and equipping, 
this is one of these situations where there is plenty of 
responsibility to pass around, and I wouldn't put it all on the 
Iraqis, and I wouldn't put it all on us, and I wouldn't put it 
all on Congress and all on the Pentagon, but let me just tell 
you what happened.
    You passed the money for 2015, the appropriations bill, in 
December. The money came out in January, went through whatever 
OMB [Office of Management and Budget] process. And then there 
was, in your bill, the requirement that we only spend 25 
percent of it until we report on the last 75 percent. We met 
that requirement.
    That really, I can't say, was the limiting step. The 
limiting step for us to expend that money was building the 
training sites.
    What we did do in the meantime, while we were waiting for 
that money, is reach into all kinds of other pots we have--
excess defense articles and so forth. And so we tried to fill 
the gap.
    Now, the gap is closed now, and that money is flowing. But 
it wasn't all on the Iraqi side, although they were an 
impediment. Particularly when it came to arming Sunnis and 
Kurds, the government in Baghdad didn't want us to do that.
    But, anyway, we are back on our feet now, but I am not 
going to try to excuse something that took longer than it 
should have.
    Mrs. Davis. Thank you.
    And just quickly, with the 2 seconds left I have, on the 
resources that Secretary Kerry and the State Department are 
going to have and the backup security, I just want to be sure 
that we get a full answer on that.
    Thank you.
    Secretary Carter. I would be happy to provide that.
    [The information referred to can be found in the Appendix 
on page 65.]
    The Chairman. Mr. Secretary, both Mr. Smith and I would be 
very interested to know, or to have you follow up, who denied 
CENTCOM the ability to put up a Web site with the facts and on 
what basis they denied it.
    He and I have worked for some years to update some of the 
outdated restrictions on these sorts of issues, and we are very 
interested in fixing this problem if part of the problem is 
with this branch of government.
    Secretary Carter. Thank you.
    The Chairman. So if you would ask your lawyers to do that--
--
    Secretary Carter. Absolutely.
    The Chairman [continuing]. It is very important.
    Secretary Carter. Thank you very much.
    [The information referred to can be found in the Appendix 
on page 65.]
    The Chairman. Chairman Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today.
    I was looking at the preparation sheet here for today's 
hearing, and it says--this is a reference--quote, ``United 
States Policy and Strategy in the Middle East.'' And I think we 
have concluded that we don't have a strategy. In fact, the 
Commander in Chief said we didn't really have a strategy. So I 
am a little bit mystified about exactly what we are doing here 
since we don't have a strategy.
    And I am looking at the situation in Iraq. I was over 
there, just in Baghdad, a couple of months ago around Easter 
timeframe and talking to some of our troops there. We have over 
3,000 troops on the ground--boots on the ground. They are a 
little frustrated because I don't think they understand--and 
how could they?--what the strategy is if we haven't clearly 
articulated that. And now we are going to send 450 more people 
over there and, again, to execute the strategy that we don't 
know yet.
    So, as I look at Iraq--and, as you know, Chairman Dempsey, 
I, like a lot of members here, have been there over and over 
and over again, and I have watched the situation change. And 
there was one point where we looked like we were doing really 
well after the surge, and then we saw ISIS or ISIL or Daesh 
[Arabic acronym for ISIL] come pouring across the border and 
cities start to fall and Baghdad reportedly being threatened.
    And so I guess my question is where are we in Iraq today? 
Are we winning? Are we losing? Is it a stalemate? Is it a 
quagmire? What is Iraq today?
    Either one.
    Yes, sir. General, we will start with you.
    General Dempsey. I never volunteer. I mean----
    Mr. Kline. I am helping you.
    General Dempsey [continuing]. If you call on me, I will 
answer, but----
    Mr. Kline. I am helping you, General. You are up.
    General Dempsey. I have been in the Army for a long time. 
You don't volunteer for things.
    Mr. Kline. We volunteer in the Marines all the time.
    General Dempsey. Yeah, I know. I know.
    Mr. Kline. It is hard for me to understand that.
    General Dempsey. And then you call the Army to actually do 
the logistics for you. I got it.
    Mr. Kline. Yeah. We will fight to the last soldier, so----
    General Dempsey. Now, where were we? Where are we in Iraq?
    Mr. Kline. Are we in a quagmire there? Is it a stalemate? 
Are we winning? What is going on?
    General Dempsey. I got it.
    And, by the way, let's talk about the personal pronoun 
``we.'' This has to be them, right? So if you are asking, is 
the United States winning, that is the wrong question.
    Mr. Kline. No, I am sorry, that is the question I am 
asking.
    General Dempsey. Well----
    Mr. Kline. We have soldiers there. We have a commitment----
    General Dempsey. Sure.
    Mr. Kline [continuing]. There. We are flying strikes there. 
Are we, the United States, free world, Western allies, our 
allies there, are we winning or losing?
    General Dempsey. Our military--our, the United States 
military's campaign in support of a 60-nation coalition and the 
Iraqi Government, we are on path to deliver that which we have 
committed to delivering, which is security forces, not just the 
ISF but also the Peshmerga and now the Sunni tribes. We are on 
path to deliver to them the capability to confront ISIL inside 
of their sovereign territory.
    This is a far different approach than if we were to decide 
ourselves that it was our responsibility to defeat ISIL inside 
of Iraq. As the Secretary said, it is my military judgment that 
an enduring victory over ISIL can only be accomplished by those 
nations and stakeholders in the region who have as much and 
actually more to gain or lose than we do.
    Mr. Kline. So--So, I guess that--does that--that wouldn't 
put it stalemate, that doesn't make it quagmire. That makes it 
sort of winning? Or----
    General Dempsey. No, here is what it makes. You famously 
heard Stan McChrystal, when he was still on Active Duty, talk 
about confronting Al Qaeda. And he talked about the fact that 
Al Qaeda is a network and that, to defeat a network, we have to 
be a network. And Stan went off and built a very exquisite 
network of allies and partners to confront Al Qaeda. That is 
what we are trying to do against ISIL in Iraq.
    I used the lily pad example on why we are going to 
Taqaddum. Now, most of you probably know that, on the surface, 
literally, it looks as though lily pads are free-floating, but 
they are not. They are tethered to a network of vegetation 
underneath. They are a network.
    We are trying to build a network that will enable the 
regional stakeholders to confront this threat. Because, 
frankly, that is the only way it will be resolved.
    Mr. Kline. Okay. I will accept that answer, except it 
underscores where we started this thing. We really don't have a 
strategy. You have articulated a piece of what would be sort of 
a strategy. The strategy is to build a network that is not 
exactly clear what that is. I think we need to clearly 
articulate a strategy of what we the United States are going to 
do in cooperation with, in alliance with, or whatever that is 
going to be, of friends and allies.
    When I was over there, the Arab states are now increasingly 
engaged, as you know, they are flying strikes there, but we 
also hear reports that strikes are going without success in 
many cases, without even bombs being dropped. We have got some 
work to do there, and I think we ought to start with that 
strategy.
    And I yield back.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank you, 
Mr. Secretary and Mr. Chairman. Thank you for your testimony 
and both of you for your service.
    And, Mr. Chairman, especially with you, you obviously, with 
all the expertise and experience you will take with you when 
that time comes, you will leave very big shoes to fill and I 
again want to thank you for all you have accomplished and for 
all of your service.
    Mr. Secretary, can you convince me and the American people 
that our strategy in Iraq right now in trying to hold that 
country together is the right one, given the fact that it 
doesn't seem like the Iraqi people are willing to fight for 
their own country, evidenced by the fact that the soldiers that 
we helped to train when ISIL came in, they basically took their 
uniforms off and ran? And it doesn't seem to me that--you 
mentioned the sectarian violence and the sectarianism that 
exists. Are we trying to artificially hold together an Iraq 
that doesn't want to be held together?
    And are we asking our men and women in uniform to go into a 
situation and put themselves in harm's way for an artificial 
effort to hold that country together? Would we be better off 
focusing on another strategy that had a more realistic look at 
what the local people there want and pursue a strategy that 
will then allow us to focus on we, once and for all defeating 
ISIL.
    Beyond that, with the President's decision last week to 
send 400 additional--450 additional advisors to Iraq, I would 
like to know how this outwardly reactive move is coupled to a 
strategy and how it addresses bottlenecks in terms of the 
results that we would like to see from our efforts and those of 
our allies and partners. And the ranking member mentioned how 
the leader of the Iraqi parliament was disappointed that we 
don't have more buy-in from nations in the region.
    I want to ensure that, as I am sure my colleagues here do 
as well, that we aren't asking our men and women in uniform to 
risk their lives for actions that are disconnected from a 
larger strategic effort.
    Secretary Carter. Thank you, Congressman. And some of the 
parts of your question echo the questions that Mr. Kline was 
putting. I mean, the--I will start with one thing, which is he, 
and he is not--I can't thank him, but we very much appreciate 
it when you do visit our people. And, it is important that they 
have an explanation of what our strategy is even as it is 
important that you as our oversight committee have an 
explanation of what our strategy is.
    And with respect to Iraq, the critical ingredient of the 
strategy is strengthening local forces. We believe that is 
possible. It will take some time. And the American role in that 
is to train, equip, enable, and assist those forces once they 
are built, and that is not--and that is the American role in a 
coalition. So that is the approach to defeating ISIL on the 
ground in Iraq, recognizing that only their defeat on the 
ground can be a lasting defeat, a sustained defeat. And so that 
is the approach we are taking on the ground in Iraq and Syria.
    As we discussed earlier, there are other parts of the 
counter-ISIL strategy that are also very vital, they don't 
happen to be our responsibility, but on the intelligence side, 
which is very challenging with this group, on the counter-
messaging side, finances, foreign fighter flows, these guys who 
come in and potentially come out, including to this country. So 
there are a lot of different dimensions to combating this----
    Mr. Langevin. Before my time expires----
    Secretary Carter [continuing]. But the strategy on the 
ground in Iraq is as I described and as the Chairman described.
    Mr. Langevin. Are we trying to artificially hold together 
an Iraq that doesn't want to be held together?
    Secretary Carter. I believe that there are some indications 
that there can be a decentralized but multisectarian, unitarian 
Iraq. That is the path that Prime Minister Abadi says he is on, 
that other leaders like Mr. Jabouri, who was here last week, 
says he is on. I think we ought to give them a chance, because 
that is the best outcome. Sectarianism is not a good outcome 
there. We have been to that movie.
    Mr. Langevin. Thank you, Mr. Chairman.
    The Chairman. The time of the gentleman has expired.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. And thank you both 
for your service and what you are doing to protect our country, 
but I have a question building on some previous questions about 
why we are not targeting known ISIS assets? For instance, 
everyone knows where the headquarters of ISIS is in Raqqa, 
Syria, I believe, a large, multi-story building.
    We know that there are convoys of oil, crude oil, being 
taken to Turkey, sold to raise money for ISIS, that that is a 
kind of a lifeline for money, as far as I look at it. And I 
can't imagine that it is a military decision to not take out 
known military assets, so there must be a political reason.
    So, Mr. Carter, what is the political reason, or why are we 
not targeting known ISIS assets, if the intention is to degrade 
and destroy ISIS, as the President has said?
    Secretary Carter. Congressman, the target types that you 
described are authorized: leadership targets, indeed; fuel, 
which is partly used to finance this movement, legitimate 
target. We do strike those targets.
    I think the only limitation, and I will let the Chairman 
elaborate on this, that the people managing the coalition air 
campaign have, and this is a coalition judgment, not just a 
U.S. judgment, is to try to avoid civilian casualties, and that 
is for obvious humanitarian reasons and also because it is not 
going to help what we are ultimately trying to do, which is get 
ISIL expelled from these territories.
    Mr. Lamborn. So you are saying--you are saying no targets 
are hands-off?
    Secretary Carter. No. The categories you named are 
absolutely hands-on, and we have struck targets like--we need 
to strike targets like that. That is definitely part of the air 
campaign.
    Let me ask the Chairman if he has anything to add.
    General Dempsey. I will tell you sir. The commander of 
CENTCOM, who holds the authority for strike decisions and the 
establishment of collateral damage estimates within the ROE 
[rules of engagement], he has the authority. Nothing is--
nothing that happens in Washington, DC, is limiting him from 
the use of the, by the way, 397 strike aircraft and 1,600 
pilots who are flying these missions over Iraq and Syria every 
day.
    It is really a matter of ensuring that the targets we hit 
are the targets we intend, because to do otherwise would 
actually further complicate this and make it an almost 
impossible situation to sort out.
    Mr. Lamborn. Okay. And if I can switch gears to Iran, they 
come into our discussion, I know it is the Middle East we are 
talking about, but Iran is part of this. Recently Olli Heinonen 
of the IAEA [International Atomic Energy Agency] spoke to some 
Congressmen and said--and he knows more about Iran and nuclear 
negotiations than anyone in the world. He said you have to have 
two things for a deal to work, or Iran will get a nuclear 
weapon: that there be able to be unannounced inspections, you 
know, by us or our designee, and that those have to be able to 
go anyplace, including military installations. Without those 
two elements, a deal is simply not going to work.
    Would you two agree with his assessment or not?
    Secretary Carter. I certainly think that a good deal, and I 
will go back to what the President said, which is absolutely 
true, which is no deal is better than a bad deal, but a good 
deal has to be verifiable. I want to add that with respect to 
Iran, you raised the question, and as I said, Iran is up with 
ISIL, are the two big challenges to the stability of the Middle 
East and to U.S. interests associated with the Middle East.
    And our role in the nuclear negotiations, as we are not 
part of the negotiations per se, we don't sit at the table, I 
have the responsibility to make sure that the military option 
is real. And believe me, we work on that, and that--to make 
that real. Second, we have the responsibility to have the 
posture in the region that we do to check Iranian influence. 
And then last, we are very committed to the defense of Israel. 
So we have a big role in this picture in defense. It is not 
part of the negotiation, but it is a very, very big role and we 
take it very seriously.
    General Dempsey. The only thing I would add, Congressman, 
is as I have had these discussions with regional partners and 
most recently my Israeli counterpart, if there is a deal, I 
have got work to do with them, and if there is not a deal, I 
have got work to do with them, and we are committed to doing 
that work.
    Mr. Lamborn. Thank you both.
    The Chairman. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman. And thank both of you 
for being here today. It is great to have you here. And I think 
it is particularly important for us on this committee and in 
this body to hear from both of you this week, as the House will 
today consider a resolution regarding ongoing U.S. operations 
in Iraq and Syria. I imagine you are aware of it.
    It has been nearly 1 year since the President outlined his 
plan to counter the threat posed by ISIL, a war he is waging 
based on authorities that have not been debated by Congress in 
13 years. And since the President announced his plan to defeat 
ISIL, the United States has spent nearly $9 million a day or 
nearly $3 billion overall, and at this rate, it will continue.
    Meanwhile, regional partners are pursuing efforts in Iraq 
and Syria that may or may not be in concert with those of the 
United States. And all of this has happened without a robust 
debate in Congress about the U.S. strategy, although we are 
starting to have that here today, the cost, which we have not 
yet addressed, and the end state in Iraq and the greater 
region. And I believe it is a debate that is long overdue, but 
I appreciate very much that you are here today.
    And, General Dempsey, we will miss you. I have always 
appreciated how forthright, how very thoughtful you have been 
in our discussions about not just what we are doing in the 
Middle East, but more broadly across the globe.
    So I have a question for you that really--I would ask you 
to think back a bit, because 10 years ago this fall, you 
assumed responsibility for a time for training, equipping, and 
sustaining the Iraqi security forces. But after over a decade 
of training, as we know, most of the Iraqi army remains a 
hollow force, and we are still challenged with that. With 450 
new American advisors being sent to Iraq and with your unique 
perspective in mind, how is today's American train-and-equip 
strategy adapting to make sure that we are not again standing 
up a force that will fold in the face of stiff resistance?
    Is it just enough that we are going to now seek to recruit 
Sunnis into it? I think it is much more complicated than that. 
So what are the lessons learned that give you confidence that 
these efforts will prove successful as you leave your very 
unique place in the American military effort?
    General Dempsey. Thank you, Congresswoman. I have a couple 
of thoughts; one is in terms of the strategy in general. I 
think our strategy is match--it matches the complexity with 
which we are dealing. If you don't remember anything else I 
said today, I think you should remember that the strategy 
matches the complexity. This is not a simple environment in any 
sense of the word.
    And to Ranking Member Smith's point earlier about where--it 
would seem inconceivable to us that the Sunni wouldn't coalesce 
around the fight against ISIL, the reality is that some of our 
Sunni partners both outside Iraq and in are more worried about 
the Shia and Iranian hegemony than they are about ISIL. And so 
that is the environment, first.
    Second, I mentioned earlier we were trying to build a 
network, and that network, which will include all the 
stakeholders I described earlier, will be somewhat fungible 
from plan A to plan B if necessary. And I think that is an 
important point to remember as well.
    So reaching out to the Sunni tribes is a very prudent--and, 
by the way, we are doing it at the request of Prime Minister 
Abadi. It was his demand signal. Incidentally, there was some 
discussion that this was a knee-jerk reaction to the fall of 
Ramadi. We have been planning this for months. And we are 
looking at other locations as well where we can continue to 
build this network, which will be applicable to plan A and in 
support of plan A, but also accessible to us if plan B becomes 
necessary.
    Ms. Tsongas. You have mentioned in the past that this is a 
generational fight, that you don't see this being resolved very 
quickly. Any words of advice, again, as you are leaving as to 
how we adapt over time to the fungible, changing environment? 
Any thoughts?
    General Dempsey. Well, that is the thought, actually, you 
articulated it, which is that I think increasingly--we have 
got, as I mentioned in our session where we talked about risk, 
for the first time in my 41 years, we have got states whose 
capabilities, I don't know about their intent, but I know that 
they have capabilities that could threaten us, and we have to 
deal with that.
    And we have non-state actors who their intent is clear, 
their capabilities are less clear, and we better find a way 
forward and, by the way, some of that includes budget certainty 
so we can build ourselves a military that can deal with both 
kind of threats and then be adaptive when we get it wrong. And 
the key to adapting is actually leader development, and nobody 
does that better on the planet than we do.
    Ms. Tsongas. Thank you. I wish you the best of luck.
    The Chairman. Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman. And thank you, 
Secretary Carter and Chairman Dempsey. I want to add my 
personal gratitude on behalf of my children for your noble and 
lifelong commitment to the cause of human freedom and the 
future of it.
    Secretary Carter, you know, it has been observed and 
highlighted in several different mediums recently that the 
Kurdish strategy seems to be the one that is working, in almost 
anyone's minds. It seems to be very effective. Yesterday 
afternoon I had the privilege of hosting Sherkoh Abbas, the 
President of Kurdistan, National Assembly of Syria in my 
office, and he was very open and honest about the strength of 
the Kurdish people, around 40 to 50 million spread throughout 
Turkey, Iran, Iraq, and Syria. And he estimated that 
approximately 150,000 Kurdish fighters could be ready once 
called, but he emphasized that their greatest limitation was 
not the number of fighters, but their equipment, their 
ammunition, the things that they need just in terms of hard 
support.
    And I guess my first question to you is I would like to 
know if the reports are true that the administration lobbied 
against an effort in the Senate NDAA to directly arm the 
Kurdish Peshmerga, and if so, why? And, what is the Defense 
Department doing to ensure the funds and equipment and weapons 
that we have to send will actually make it into the very 
committed, capable, and effective hands of the Peshmerga?
    Secretary Carter. Thank you, Congressman. And you're right. 
Committed, capable, the Kurdish forces are what we aspire to 
with respect to the Iraqi security forces in general. They show 
the will to fight. They show the capability to fight. I pointed 
earlier to their seizing just in past days one of the critical 
lifelines of supply to ISIL. So they are effective not only in 
protecting and defending their own region, but in the larger 
campaign to defeat ISIL.
    So we are supporting them from the air, we are supporting 
them with equipment, to get to your point. And I met with Mr. 
Barzani a few weeks ago. We went through the various categories 
of weapons, and it is very substantial, that we are providing. 
I should note that we are not the only ones. In fact, some of 
the ones--the systems that the Kurds have gotten that they have 
valued most actually have come from our European allies. And 
that is good; that shows everybody's in the fight. But we are 
committed to supporting the Kurdish forces.
    The reason to do the angle shot, so to speak, through the 
Government of Iraq gets back to trying to foster and support a 
single multisectarian Iraqi state. We have all discussed the 
challenges of that. The Chairman just alluded to that. But that 
is the policy, and what we have said is let's do that, but then 
we have turned to the--to Baghdad and said, well, you can't 
slow this down. And in the earlier days they were slowing it 
down, and now it is getting directly to the Kurds, not only our 
stuff but some of the stuff that is coming from Europe and 
elsewhere, which is very valuable, because these guys really do 
fight.
    Mr. Franks. Well I appreciate that, and I understand the 
policy bank shot as you called it, but I am concerned that 
maybe we are not putting enough English on it. So I hope we 
will continue to work in that direction.
    The deadline, General Dempsey, for the P5+1 [United States, 
United Kingdom, France, Russia, China, and Germany] nuclear 
negotiations with Iran is weeks away, and the perception is 
that the U.S. is entering into a deal with Iran that has 
already, in my judgment and many others, kind of had a great 
effect on China and Russia as they watch our superpower, in 
their minds, capitulate to a lesser power. And I am afraid that 
Saudi Arabia, you know, is considering, you know, its nuclear 
future, and that the U.S. appears weaker with every step 
forward that ISIS takes.
    And I know that these are policy decisions on the 
administrative level and not at your level, but a near-term 
decision like this could have much greater implications across 
the Middle East, as you know better than anyone, than any of us 
could almost imagine.
    How is the administration and the Department ensuring that 
we balance both the near-term ISIS threat with the long-term 
Iranian threat? And what effects on the ground do you foresee 
this injection of the Iranian economy with billions of dollars, 
that they might continue sponsorship of terrorism, or what 
effect is that going to have? And are we really doing what we 
need to do here?
    General Dempsey. That is not a 10-second question, 
Congressman, but I will give you a 10-second--or now a 6--a 5-
second answer.
    It is what I alluded to earlier where we have state threats 
and we have non-state actors. ISIL's strategy is the subset of 
a global strategy that actually I would be happy to lay out for 
you.
    The Chairman. The time of the gentleman is expired.
    With this many members, we have to try to hold to the 5-
minute rule.
    Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman. Mr. Secretary, 
General Dempsey. Again, congratulations General Dempsey on your 
upcoming retirement. I just retired myself. The water's fine, 
jump on in. I don't have anywhere near your years of service, 
though.
    I do want to address the fact that I continue to have some 
real reservations about our mission to train and equip the 
Syrian opposition forces, specifically the vetting process, our 
ability to differentiate between the numerous factions, to 
properly oversee the mission, and to know whether those that we 
are training and equipping are actually working in support of 
U.S. goals and our mission long-term.
    I understand that after some delay, the training of the 
first cohort has officially begun. My reservations remain, 
namely our ability to effectively identify those who can be 
trusted, who can be counted on, who will work towards achieving 
our goals. And now that the training is underway, I am 
concerned about a range of other issues, like what happens to 
the U.S.-trained rebels when they come under attack from ISIS 
fighters or from forces loyal to Assad.
    Could you please elaborate on the process for vetting and 
supplying the rebels and what kind of support they will 
receive? Also, what is our long-term commitment here? If they 
are armed with U.S.-caliber weapons, for example, have we 
committed us to long-term supply of NATO-caliber bullets? They 
are not using AK-47s, so who is providing those NATO-caliber 
rounds, .556, 7.62 and the like? I just want to make sure that 
we know how such a small group of rebels won't be able to tip 
the--you know, what their objectives would be, how do we 
measure success, et cetera.
    Mr. Secretary, could you start?
    Secretary Carter. Sure. And that is a very excellent 
question. And the Syria train-and-equip program is even more 
challenging than the Iraq train-and-equip program, for the 
reasons you cited namely.
    We are trying to recruit and identify people that, as you 
put it, can be counted on, that is, to fight, to have the right 
mind-set and ideology, not be aligned with groups like ISIL on 
the one hand, and on the other hand, as you put it, work 
towards our goals, our goal being for them to fight ISIL in the 
first instance. It turns out to be very hard to identify people 
who meet both of those criteria. General Nagata is trying very 
hard to identify such people.
    And then you raise yet another question, which is when we 
equip them and set them loose, what responsibility do we have 
for them thereafter? I believe we have some obligation to 
support them and protect them, including supply them, but then 
there will be questions raised, I am sure, including by members 
of this committee, where, did any of the stuff we give them get 
diverted? And that is always hard--you know, if we are dealing 
with Iraqi security forces, we are dealing with the 
government's security forces. We have a little more experience 
keeping control over their equipment and so forth. But with 
respect to these people we are trying to recruit in Syria, it 
is going to be much--it is much trickier.
    So these constraints that we put on ourselves, which are 
perfectly understandable, do progressively limit the number of 
inductees into the program, and that is proving the thing that 
limits the growth of the program. We have enough training sites 
and so forth to run them. For now, we don't have enough 
trainees to fill them.
    Let me ask the Chairman if he wants to add anything.
    General Dempsey. Thanks, Congressman. And thanks for your 
service. You know, whenever I talk to veterans, they consider 
themselves fortunate to have you here, so thank you.
    I share your reservations. You know, this is very--this is 
challenging. This is, as the Secretary said, more challenging 
even than Iraq, but it is--it is the necessary step to try to 
have some credible ground partner. We have got some experience 
supporting the YPG [Kurdish ``People's Protection Units''] and 
their efforts around Kobane and elsewhere on the Syrian-Turkish 
border.
    The kind of support that is under consideration is command 
and control, logistics, intelligence, and close air support. No 
decisions made, because we haven't reached the point where we 
are about to deploy them. We have had some challenges 
recruiting and retaining. We are trying to work through those. 
And as I said, we have a template that we have applied 
elsewhere that we think is applicable, and particularly if you 
want to keep them in the fight, and those decisions will be 
made here sometime within the next couple of months.
    Ms. Duckworth. So at what point is there diminished 
returns? I mean, if you can have so few recruits that can meet 
all these criteria and the commitment is so great, is it worth 
it to continue this policy of training and equipping the Syrian 
rebels?
    General Dempsey. Well, I think for now we are just 
literally at the first iteration or tranche of this, so it is a 
little too soon to give up on it. The alternative, by the way, 
is to try to find groups within Syria, which is itself a 
challenge to partner with, but we have got to partner with 
somebody.
    Ms. Duckworth. Thank you.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Secretary Carter, 
Chairman Dempsey, thank you so much for your service.
    I want to go to your comment that you have made about the 
lack of success, overall success with Iraqi forces against 
ISIS, and you talked about some of the shortcomings of the 
Iraqi forces, whether it is their command and control, their 
capability, their will to fight.
    Let me ask this. There has been some suggestions that there 
are more things that we can do with our forces from an 
operational perspective, from additional enablers, things like 
flying more air cover, special operations forces [SOF] in 
targeted areas, more forward air controllers, better ISR, 
intelligence, surveillance, reconnaissance, training and 
advising at the battalion level, and even the assertion that it 
may be better for us to put in certain ways more of our troops 
on the ground in addition to other Arab nations that have 
interests along with us, countries like Jordan, Saudi Arabia, 
Egypt, in a greater combined force on the ground.
    Give me your perspective. We have heard from you about 
where the shortcomings of the Iraqi forces are. Give us your 
perspective on the current strategy. Is there more than that we 
can do from an operational and support aspect with our efforts?
    Secretary Carter. Thank you. To get to the first part of 
your question, how have the ISF performed? The honest truth is 
it is mixed. Some units, like their counterterrorism forces, 
have fought admirably and relentlessly, almost to the point of 
exhaustion over the past months. Others have dissolved and 
collapsed, as I indicated. It is a very mixed story.
    And furthermore, the Iraqi security forces have 
increasingly become a Shia force rather than a Sunni force, 
which is precisely why the people of the Sunni part of Iraq 
didn't feel like they were protecting them, and that it was 
their army. And they need to come back into that feeling if we 
are going to have, as we have said, the multisectarian state.
    To get to your question, when we have capable Iraqi ground 
forces, like the kinds we are trying to build at Taqaddum, your 
question is what kind of support would we provide them. We are 
certainly committed to providing intelligence support and 
advice and assist support.
    With respect to introducing more forces on the ground with 
them, that is something that we will, I think, need to revisit 
as those forces are actually produced. Once we have a capable, 
motivated force, what can we do to enable and support it. I 
like your idea of involving not just us in that, but our role 
is to be an enabler, a motivator, the Chairman used the word 
``leadership,'' and not a substitute for a capable ground 
force, but an enabler of a ground force and that is where we 
would like to get to.
    Mr. Wittman. Chairman Dempsey.
    General Dempsey. Thanks, Congressman. The words to keep in 
mind are that we are--our strategy, besides matching the--or 
matched to the complexity is also trans-regional. We are 
talking today mostly about Iraq and Syria, but as you know, 
ISIL has tentacles out in other places. And it has got to be 
sustainable over time, and that is, I think, the point to carry 
away here.
    So let's take ISR, for example. We have got about 50 
percent, almost 50 percent of the global resources in ISR, 
unmanned, committed into the Iraq-Syria sector. That is a heavy 
lift, so to suggest--and by the way, the rest of it is reacting 
to European security, to issues related to Iranian 
aggressiveness in the Strait and over in Yemen to issues in the 
Pacific, and so--and in Afghanistan, of course, where we have--
still have 10,000 troops committed. So we are trying to find a 
way to make this a sustainable effort, which means by, with, 
and through partners.
    We are trying to provide our unique capabilities. But to 
your--meaning that which no one else can provide. But we, of 
course, are looking at points, discrete moments for limited 
objectives, for offensive operations where we might provide an 
additional boost to the Iraqi security forces. But I would be 
very reluctant--that is probably not the right word, I get 
accused of being reluctant often. I would be--my military 
judgment would be that introduction of those resources should 
not be done on a habitual basis, because we really want them to 
understand that this is their fight, but rather for moments 
where it would be strategically significant, potentially, for 
example, an assault on Mosul.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman. Mr. Secretary, in 
the nine lines of effort that comprise our strategy, the first 
one that you cited is political, and you said that every other 
line of effort follows from that, we must be successful 
politically if we are going to be successful at all in the 
other lines of strategy and if we are going to achieve our 
goals in the region.
    You gave as an example in your opening testimony building 
governance. Can you tell us where we have built governance in 
that region successfully? And the follow-up question to that is 
how long will that take, since everything follows the success 
of that first line of effort?
    Secretary Carter. That is a very good question. It is a 
very complicated task. And in Iraq, it will mean when--helping 
the Iraqis, helping them when they recover territory from ISIL, 
to build a system of governance that the people who live there 
support and are willing to support and defend in the long-term.
    You say, ``where have we had success?'' My own view is we 
have had considerable success in Afghanistan. I was just 
speaking to President Ghani yesterday morning; he was reporting 
the results of the campaign there. Again, the Afghan security 
forces, which we are enabling, which we trained and equipped 
and are enabling, the National Unity Government of President 
Ghani and CEO [Chief Executive Officer] Abdullah Abdullah, 
which is a multisectarian government holding together. This in 
Afghanistan, which I think if you can go back 15 years, would 
say a very unlikely place for that to be done. So, now, we have 
assisted and enabled that.
    Our people are very good at that. We are not at that stage 
yet in Iraq, but when we get to that stage, I think that we 
will participate in an international effort to help these 
places that are tragically demolished to rebuild themselves and 
govern themselves.
    Mr. O'Rourke. So 15 years in Afghanistan to get to a 
successful example of building governance in this region. And, 
including the fact that we have been in Iraq in one form or 
another since 2003, invested tens of billions of dollars to 
assist in building governance, trained and equipped an army 
that melted in the face of the enemy, I have some serious 
reservations about the potential to achieve success on this 
first line of effort.
    The third line of effort that you mentioned is helping to 
produce a capable, committed local ground force. You admitted 
that we had budgeted to train and equip 24,000, have only been 
able to recruit 7,000. You add to that that the only ground 
forces apart from the Iraqi army are the Shia militias funded 
and led and armed by Iran. Is this a serious proposal? Is this 
a serious line of effort that we can seriously expect to 
succeed, given the most recent failures and your admission that 
the Iraqi National Army lacks the will to fight?
    Secretary Carter. Well, it is a serious effort, but it 
hinges upon Sunni fighters coming into the Iraqi security 
forces, being trained and equipped by us and the coalition, 
enabled by us, but fighting for their homeland. That is the 
essential ingredient. That was absent last--starting last 
summer. It was quite clearly absent; not everywhere, because 
I--earlier we talked about the Peshmerga. I mentioned the CTS 
[Counter Terrorism Service] and other units of the Iraqi 
security forces that did fight. And as you indicate, there are 
Shia militias which we don't support. We only support those 
that fall under the Government of Iraq as part of our overall 
strategy of supporting a multisectarian government there. So 
that is the strategy. It is difficult.
    I think the gap between 7,000 and 24,000, the whole point 
of Taqaddum is to try to close that gap, because we are trying 
to close that with Sunni fighters. That is the essential 
ingredient. And I think we need--we are going to get on track 
to close that gap, and that is important.
    Mr. O'Rourke. In an exchange earlier, one of my colleagues 
and you had agreed that one of our primary missions is to 
support soldiers and families. I can think of no greater way of 
supporting them than ensuring that we have a strategy that can 
succeed when we are going to place them in harm's way and 
acknowledge that many of them will lose their lives or have 
their lives changed irrevocably upon return. So I hope there is 
a plan B from the administration.
    With that, I yield back.
    Secretary Carter. Amen to that. That is yet another reason 
why they deserve, as you deserve, a clear explanation of what 
we are trying to accomplish.
    The Chairman. Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman. And thank you, 
gentlemen, for your service. Secretary Carter and General 
Dempsey, thank you for your service to our beloved Nation.
    I do have some questions about what is happening in Iraq. 
Your nine points or nine lines that you talked about, Secretary 
Ash--Secretary Carter, rather.
    Most of them are non-kinetic, such things as intel and 
messaging, counter-messaging, and that sort of thing. But, 
General Dempsey, you said the other day that with regard to 
Ramadi, that the city itself is not symbolic in any way.
    So the question is, what factors on the ground would 
change? And this is a question for both of you. You can 
volunteer each other on this. But what would change on the 
ground in Iraq that would change our strategy, particularly in 
a more kinetic way?
    Secretary Carter. There is in one's thinking a--the 
question, what if a multisectarian Iraq turns out not to be 
possible? I think the Chairman addressed that. I just agree 
with what he said earlier. It was in response to what 
Congressman Smith asked. That is an important part of our 
strategy now on the ground.
    If that fails, then if that government can't do what it is 
supposed to do, then we will still try to enable local ground 
forces, if they are willing to partner with us, to keep 
stability, but there will not be a single state of Iraq. And at 
the same time we are doing that, I think the other nine lines 
of effort are--signify that we, while we are working on this 
challenging situation on the ground in Iraq, we are trying to 
protect ourselves and kind of maintain the threat.
    Dr. Fleming. But to be more specific in my limited time, 
let's say that the capital, Baghdad, itself is in danger of 
falling; the entire government could be toppled. Would that 
change our on-the-ground strategy? Would it change the extent 
to which we use kinetic activity?
    Secretary Carter. I will ask the Chairman to comment on 
this as well. I don't see that, that particular scenario change 
on the ground as very likely, for the reason that Prime 
Minister Abadi, one of the steps he has taken is to surround 
Baghdad with much of their remaining Iraqi security forces.
    And secondly, many of them, as I have noted, are Shia in 
sectarian orientation, and therefore likely to fight fiercely 
for that part of Iraq. Therefore, I think that is unlikely, but 
I am going to ask the Chairman for his military judgment.
    General Dempsey. Thanks, Mr. Secretary.
    That is why we are there right now. I mean, the threat to 
Erbil was what drew us into the kinetic portion of this fight 
as well as the threat to Baghdad and the fact that we have our 
diplomatic presence there in the form of our embassy and 
thousands of American citizens. So, look, we will always 
protect our national interests unilaterally, and, in fact, some 
of the recent special operations strikes and some of the other 
kinetic strikes that you have seen us conduct, both manned and 
unmanned.
    And let's not forget that in terms of our kinetic action, 
these 1,650 pilots that are flying in and out of Iraq and Syria 
know how very dangerous it is should they ever find themselves 
with an engine failure, not least a shot from an air defense 
weapon. So we are very active kinetically. The question I think 
you have is: ``Would something cause us to be more kinetic?'' 
Obviously, it would be a threat--credible intel of a threat to 
the homeland or credible intel of a threat to our facilities 
and persons. But for the day-to-day ISIL fight, we are relying 
upon coalition partners.
    Dr. Fleming. Well, in my limited time, I think you have 
segued into my next question, and that is, what if the homeland 
is hit hard such as 9/11? Would that change our strategy in 
Iraq, and in what way?
    General Dempsey. I suspect so, actually, but the 
fundamental strategy today is to prevent that from happening 
and to have an enduring outcome. If you are suggesting that 
could we go in and do a better job ourselves against ISIL, 
absolutely, but we will be back there 2 years from now.
    Dr. Fleming. Thank you.
    The Chairman. Mr. Takai.
    Mr. Takai. Thank you, Mr. Chairman. Thank you, General 
Dempsey and Secretary Carter for coming today and also for your 
service to our country.
    In February, the President submitted an AUMF [authorization 
for the use of military force] to Congress that we never put to 
a vote. I believe that we must have a full and open debate on 
the ongoing operations in the Middle East. Given the ever-
changing situation, has there been any thoughts to updates or 
changes to the AUMF measure since it was submitted? For 
example, is there more clarity on the phrase ``enduring 
offensive ground combat operations''?
    Secretary Carter. Thank you. I will answer that. The very 
question that the Chairman and I asked ourselves about the AUMF 
now several months ago, and I actually testified about the 
AUMF, asked ourselves two questions: one was, did this give us 
the needed flexibility and authority to conduct the campaign 
that is necessary?
    And the second is: did it--would its passage clearly 
signify to our people that--``our people'' meaning our men and 
women in uniform and the other members of the Department of 
Defense--that the country is behind them in this fight? Those 
are the two things that are important about the AUMF to me.
    The features that--the first question is affirmative for me 
in the version that the President submitted, because it was 
flexible or broad in its definition of ISIL and the enemy, so 
to speak, because it was not geographically limited, because we 
know ISIL is geographically limited.
    It had the 3-year piece in it, which is not anything to do 
with the military campaign. I can't tell you that in 3 years 
the campaign against ISIL is going to be over. The 3 years in 
the AUMF is a recognition of our constitutional system, the 
fact that there will be a new President and that Congress and 
the new President ought to be able to revisit the strategy 
seems reasonable to me, but it is not really a military thing.
    The only restriction within it is about long-term, large-
scale offensive combat operations, which we judge, for all the 
reasons we have been describing earlier today, are not part of 
our strategy and we don't think are going to be needed to 
combat ISIL. Therefore, I am okay with that provision in the 
AUMF the President has submitted.
    So those are the questions we asked ourselves, and on both 
of those grounds, I hope that it will pass. I can't say whether 
it is legally necessary in any sense, but I think it would show 
support for the troops, and in that sense is a good thing.
    Mr. Takai. All right. For Secretary Carter again, last week 
an additional 450 troops were deployed in support of Operation 
Inherent Resolve. However, you have said personally that, and I 
quote, ``nothing that we can substitute for the Iraqi force's 
will to fight.'' And following the fall of Ramadi, you also 
made similar comments. I think you made comments as well today.
    I think many of us here in Congress are gravely concerned 
that the administration is considering committing a substantial 
American ground force to the ongoing efforts to combat ISIS, as 
it has been 10 months and we have slowly seen a ramp-up of U.S. 
forces in Iraq and Syria. Are options being considered to 
redeploy a substantial ground combat force to the region to 
combat ISIS? If not, at what number would the line be drawn for 
American forces in Iraq? I think we all want to know how does 
this end and where do we draw the line on American involvement 
in this conflict?
    Secretary Carter. The essence of the strategy is not to 
have U.S. forces substitute for capable and motivated local 
forces, but to have U.S. and coalition forces enable those 
forces. And the reason for that is that that is the only way to 
get a lasting result. American forces, outside forces can 
combat, but then it comes time for them to sustain the victory, 
and that can only be done by local forces. That is the reason 
why our strategy is not to put in 100,000 American troops. It 
is to put in smaller and carefully selected groups that can 
have unusual leverage.
    That is the point about Taqaddum. It is not about the 
number of people that are there, it is the leverage they are 
going to have there right in the middle of Sunni recruiting 
territory, and we want Sunnis, and it is right in the middle of 
where the Anbar Operations Center is that we can help the Iraqi 
armed forces.
    Mr. Takai. Thank you. Thank you, Mr. Chairman.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    First of all, General Dempsey, I want to thank you so much 
for your decades of dedicated service to this country, and 
although I certainly feel that you have earned that retirement, 
we will miss you. I think this country will miss your service 
to our country.
    The--there is a--I guess, a position of this government of 
no boots on the ground. And I just want to drill down to what 
that means, because I agree that we shouldn't have U.S. 
military personnel back in Iraq as the ground component, 
maneuver element, taking the fight away from the indigenous 
forces there, Iraqi security forces.
    But I also have a concern about that definition in terms I 
do feel that there ought to be some U.S. military personnel 
forward with Iraqi forces, forward air controllers to make sure 
that we have effective close air support, advisors, not simply 
behind the wire, but with the Iraqi units.
    I served in Iraq with the Marine Corps, and what I noticed 
in going out in joint patrols in the Western Euphrates River 
Valley was that it really emboldened the confidence of those 
Iraqi soldiers.
    And so what is the position of the administration right 
now, because I have heard critics complain about the 
effectiveness of our close air support in terms of the number 
of missions and the effectiveness of those missions, the number 
of sorties and the effectiveness of those sorties? General 
Dempsey.
    General Dempsey. Thanks, Congressman. On this boots-on-the-
ground issue, I don't know what the administration's position 
is long-term. I can give you my military judgment here today, 
and that is that I would not be--I would not recommend that we 
put U.S. forces in harm's way simply to stiffen the spine of 
local forces. If their spine is not stiffened by the threat of 
ISIL on their way of life, nothing we do is going to stiffen 
their spine.
    On the other hand, when they become offensive, and as a 
military man, you understand the distinction between defense 
and offense, when they go on the offensive and if there is a 
strategic target and we want to ensure that they succeed in 
achieving that strategic target, it could be a major city, it 
could be oil refinery, I would certainly take General Austin's 
advice and go to the Secretary of Defense and have that 
conversation about how we could--how we could make the chances 
of success better, but not just to stiffen their spine.
    In terms of the success of the airpower, the airpower's 
limitation is not about forward air controllers or JTACs [Joint 
Terminal Attack Controllers] or U.S. service men or women 
forward, it is about the intermingling of a significant number 
of groups. So in any particular place, let's take Ramadi, you 
will have the intermingling of the Iraqi security forces, 
conventional, maybe their counterterror forces, which are 
special operators, some elements of the Shia militia, some of 
which are actually working on behalf of the country of Iraq, 
some of which we are very concerned about, and tribes.
    And so we are very precise and very deliberate about the 
use of airpower so that we don't actually undermine our own 
campaign of trying to focus this effort on ISIL.
    Secretary Carter. Can I just--because you asked about the 
administration, I don't want to put the Chairman in that 
position, I agree with everything the Chairman has said and am 
open to that judgment in the future. What we need, however, is 
an Iraqi ground force, and then we can provide the leverage for 
them, again, not just to stiffen their spine, not to substitute 
for them, but to leverage them.
    And the last thing I will say is there are boots on the 
ground in Iraq. We think about them every day. I appreciate any 
of you that visits them. They are not just in Baghdad, they are 
around the country, but the job they are doing is to build this 
capable and motivated ground force that, yes, as you say, we 
can then leverage. And we will revisit or visit that question 
when we have the ground force to enable and----
    Mr. Coffman. Well, let me make sure I understand both of 
your positions, and that is we are--if Iraqi, forward Iraqi 
forces are in contact with ISIS or enemy elements, then--and 
close air support would be effective in terms of change--of 
influencing that battle, influencing the battlefield, shaping 
the battlefield, then in fact you would support U.S. military 
personnel forward with Iraqi units in the form of, say, forward 
air controllers?
    General Dempsey. We will take that one for the record, 
Congressman.
    [The information referred to can be found in the Appendix 
on page 66.]
    The Chairman. Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman. Gentlemen, thank you 
both for your service and for being here.
    General Dempsey, when I walked into your office in Baghdad 
as a lieutenant and you tried to figure out how a lieutenant 
was supposed to report to a three-star [general], you proved to 
me that you are not only a great national leader as you have 
demonstrated for the entire country, but you are also a very 
good boss, and I am grateful for being able to serve with you 
as well as have you lead our country in so many important ways. 
So thank you very much.
    When you say, Mr. Secretary, that putting U.S. combat 
troops on the ground is no substitute for local forces, because 
only local forces will produce enduring results, my concern is 
that the plan that we are really executing now as far as 
training local forces does not look materially different than 
what we were doing some time ago; we just--it is a much smaller 
scale. I think that the missing component here is really an 
enduring political plan to ensure that the Iraqi Government can 
hold itself together, because ultimately it is really a 
political failure in Iraq today, and I think we all agree on 
that.
    So talking about how important this first line of effort 
is, building a more effective, inclusive, multisectarian 
governance in Iraq, I am concerned by my experience on the 
ground there when I visited in February, because I didn't see a 
single American commander on the military side who knew 
anything about a political plan. When I talked to the U.S. 
Ambassador at Baghdad, his position was essentially that it is 
up to the Iraqis, it is not for us to influence. But it is not 
about us influencing it or a sovereign Iraq state, it is about 
us either us influencing Iraqi politics or Iran influencing 
Iraqi politics.
    And it concerns me as well, frankly, Mr. Chairman, when you 
say that you don't know what the administration's long-term 
plan is, because if we don't know what the long-term plan is, 
then I am not sure it is worth putting these troops at risk in 
Iraq today.
    At a personal level, the most frustrating part of going 
back to Iraq in February was seeing so much of what we had 
fought for and achieved during the surge really gone to waste. 
And I want to make sure that we do have a long-term, enduring 
political plan so that whatever effort is made by these 450 and 
others on the ground in Iraq today, it doesn't go to waste and 
we don't find ourselves sending troops back again 5 years from 
now.
    General Dempsey. Can I just start, sir? I just want to make 
sure, because I didn't intend to imply that I don't know what 
the administration's plan is. I think we have tried to lay that 
out.
    What I meant to suggest was that as this military campaign 
has evolved, when we have approached the administration for 
additional resources within the context of the strategy, they 
have taken our advice in every case. I just haven't gone 
forward yet with any further recommendations.
    Secretary Carter. I want to just second that, and that is 
kind of the answer to Mr. Coffman's excellent question as well.
    With respect to your also excellent question, is that 
reinforces that the first line of effort is essential, the 
first line of effort being an Iraqi Government that will not 
behave the way Maliki's government did. And that is something 
we can influence, we don't directly control, but we can 
influence, and that is why the first line of effort and the 
second and third, why I am so intent, and I know the Chairman 
is, on aligning the political with what we are trying to do.
    Mr. Moulton. So, Mr. Secretary, what are we doing to 
influence it? And I can--just to drill down to a specific, what 
are we doing specifically to counter Iranian political 
influence on the ground in Iraq today?
    Secretary Carter. Well, we have made it clear to Prime 
Minister Abadi and all the parties there, and they have 
supported the point of view that we are not going to support 
militias or Shia forces supported by Iran or otherwise 
constituted that are not under the control of the Iraqi 
Government. So the ones that we are going to support and the 
ones that we are going to enable, and therefore the ones that 
we intend to be successful as part of our strategy, will be 
under the control of the Government of Iraq, and they will be 
the successful forces.
    Mr. Moulton. And are they responding to that leverage? 
Because I spoke to the Iraqi Ambassador last week, and he said 
the difference between America's support and Iran's is they 
have a house on fire: America comes with these conditions, get 
fire insurance and we will support you; Iran just shows up with 
a fire extinguisher, and his view is they are being much more 
effective at leveraging Iraqi politics today.
    Secretary Carter. Well, we have spoken to Prime Minister 
Abadi and the members of his government about precisely this 
point. And he is asking for our help. Now, does he speak for 
everybody in Baghdad? No. But he is asking for our help. He 
says he prefers our support.
    Mr. Moulton. Thank you both.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman. General, Mr. 
Secretary, thanks for being here.
    I guess what--I don't know, they have been asking about 
ISIS pretty hot and heavy here, so we will keep it in the 
Middle East. You are familiar with about 2 years ago I asked 
Secretary Hagel to institute a hostage policy review. I asked 
him to appoint a hostage point person for DOD. It ended up 
being Mike Lumpkin, who is now ASD [SO/LIC] [Assistant 
Secretary of Defense (Special Operations/Low-Intensity 
Warfare)], and Secretary Hagel did that, appointed Mike 
Lumpkin. The White House instituted a hostage policy review. 
All of this came about because things were brought to my 
attention by a Lieutenant Colonel Amerine, Special Forces 
soldier, fought in Afghanistan, was working in a section of DOD 
working on hostage policy and hostage recovery for DOD.
    He is now being investigated. He is being basically drummed 
out of the Army. You would not have a hostage policy review, 
unless Secretary Hagel started it on his own, without my 
request. I would not have requested it, you would not have had 
a hostage point person in Mike Lumpkin, if it were not for 
Lieutenant Colonel Amerine.
    Secretary--Senator Johnson wrote you a letter I think a few 
days ago asking you to look into Secretary McHugh, his, let's 
say, investigatory policies within the Army, possible abuse by 
CID [Criminal Investigation Command] within the Army, and the 
case of Lieutenant Colonel Amerine in particular.
    So I would just ask you right now, I would just like your 
commitment that you would look into this, because none of this 
would have happened if it weren't for Amerine, who has now has 
to claim whistleblower status because he helped the United 
States fix its botched hostage recovery policy, of which we had 
none. I mean, we have talked about this.
    You had FBI, State, DOD and other--the intelligence 
communities all in their own--own lanes doing their own things 
for hostages. That is going to change now. You are going to 
have your own hostage policy now that that review's underway. 
And the House and Senate, our NDAA was passed, that had a--the 
parameters for your--for the administration's new hostage 
recovery policy set up in it. That is going to pass the Senate. 
So you are going to have that now. That would not have come 
about without the guy who is under investigation for making it 
all possible. Right?
    Secretary Carter. Congressman, I am familiar with the case. 
You have my commitment. It is under investigation now by the 
inspector general. So, I am familiar with the case. I can't 
comment on it because it is under investigation, but you have 
my commitment that I will keep in touch with that investigation 
as appropriate.
    And you also have--I can't speak for the history, of 
course, but you certainly have my commitment with respect to a 
reasonable conclusion of a hostage policy review.
    And since the Chairman may have been present at the 
creation of that review, if you would like to comment, 
Chairman.
    General Dempsey. Yeah, I don't--obviously, Congressman, we 
can't comment on the investigation. We are both aware of it, 
and we are certainly enthusiastic to move ahead with the 
hostage rescue issue and make it more coherent across 
government.
    Mr. Hunter. Thank you.
    And I would just stress, I mean, one of the reasons the 
Army puts things under investigation is so you can't comment on 
it. I understand that. That has happened to me in the past.
    Number two, I would just ask that you--that this, I think, 
is bigger than one particular service. I think that when you 
look at this case in particular and Jason Amerine and what he 
has done, he was in service to the entire country and to the 
Constitution, and he was doing his duty.
    And I think, if you don't conduct some oversight on the 
investigation itself, the investigation of the investigation, I 
think we are not going to have the outcome that we should have, 
which is Amerine being cleared and not excoriated anymore but 
being praised as someone who actually got something done within 
the system even though they had to go outside of the system to 
us.
    And I would hope that every single one of those gentlemen 
sitting behind you all in uniform knows that if they can't work 
within the system that they can come to Congress. I mean, that 
is what we are here for. Because when you are in the box, you 
can't always fix yourself. That is what we are here to do.
    So, with that, I yield back, Mr. Chairman. Thank you.
    The Chairman. Thank you.
    Ms. Gabbard.
    Ms. Gabbard. Thank you very much, Mr. Chairman.
    Thank you both for your service and for being here with us 
today.
    You know, we have heard a lot of discussion about this 
first line of effort that you outlined in your opening remarks 
to address the political and sectarian situation in Iraq. And I 
think it is important, as we look at this question of what is 
our strategy to defeat ISIS, it is important that we operate in 
the world that actually exists, not the one that we hope or we 
wish could exist or would exist in the future. It is important 
to recognize that, while these ideals are good to have, we are 
operating in the world that exists today.
    So, even as we look at this administration's policy, the 
previous administration's policy, the billions of dollars and 
thousands of lives that have been spent in holding onto this 
unified central government policy, even as we hear rhetoric 
from Prime Minister Abadi, the reality is that experts, both 
who wear the uniform and those who have studied the Middle East 
for a very long time, all say for practical purposes you have 
three regions in Iraq. It is a fractured country, with the 
Kurds in the north, the Shias have their stronghold in Baghdad 
essentially, and you have the Sunni territories largely to the 
west.
    So, when you look at this question and you look at, Mr. 
Secretary, your answer to Mr. O'Rourke's question with regards 
to give us an example of how there has been a plan or there is 
a plan in place to allow for this and support governance and 
the ability, for example, the Sunni tribes to secure 
themselves--and you talked about how this would happen in the 
future, help the Iraqi Government put a plan in place for 
governance as territory is recovered.
    But my question goes to Tikrit. This is an offensive that 
took place not that long ago. I questioned before this occurred 
to members of the administration what was the plan, and there 
was no plan at that time. And we saw, as a result, once Tikrit 
was taken, Sunni families were terrorized by Shia militia, 
homes were burned down, businesses were looted. And, as a 
result, you continue to see why these Sunni people have no 
motivation to go and fight for this so-called Iraqi security 
force, this Iraqi Government that shuts down bridges when they 
are trying to run away from ISIS.
    So as you say it is essential Sunni fighters are brought 
into the fold, I think we all recognize that the Sunni people 
need to be empowered, but this is why there is no faith by many 
in Congress and the Sunni tribes, most importantly, that there 
is a plan in place to empower them.
    Secretary Carter. I very much respect your expertise and 
your perspective on this. And one of my favorite sayings is, 
``Hope is not a strategy.''
    And this is a strategy--the particular part of the strategy 
which has to do with the integrity of the Iraqi state is a 
challenging one, no question about it, for all the reasons you 
describe. If it can be achieved better than sectarianism in--
for the Iraqi people and for what we want, which is ISIL's 
lasting defeat. Is it difficult to achieve? Yes. Does it 
involve as an essential ingredient empowering the Sunnis and 
giving them the will to participate? Absolutely.
    Is Tikrit a good example of what we are trying to achieve? 
No, it wasn't. That is the whole point. That was not an ordered 
operation under the exclusive control of the Iraqi Government. 
And it had the kind of aftermath that exactly incentivizes us 
to be trying to get Sunnis into the fight. Because if you put 
Shias into the Sunni fight, you know how that ends. That is not 
lasting defeat. So that is why we are trying to get the Sunnis 
into the fight.
    I think you are asking exactly the right question. I think 
it is more than hope. I think there is a prospect that we can 
do this. We are determined to do it. There are plenty of Iraqis 
who say that they will support that strategy and that we can 
make it succeed.
    Ms. Gabbard. Thank you, Mr. Secretary.
    I would just continue to urge the administration to 
consider changing its policy on supporting this government in 
Baghdad. You mentioned sectarianism is the problem. I would 
argue that this government in Baghdad is further adding fuel to 
the fire of sectarianism by allowing these Shia militia, by 
allowing this sectarian persecution and oppression to continue, 
which only allows further oxygen for ISIS to continue to exist 
and to continue to grow in Sunni territories.
    Thank you.
    The Chairman. Thank you.
    Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    I would like to thank the Secretary and the Chairman for 
coming and testifying today. I think I would like to follow up 
on the line of questioning that we were just going down.
    You know, you mentioned earlier, General Dempsey, about 
General McChrystal and you have to defeat a network with a 
network and his commitment to that. Certainly, he was also very 
committed to the counterinsurgency strategy that was deployed 
in Afghanistan.
    You were the deputy commander of CENTCOM when we employed 
counterinsurgency in Iraq, and I think you eventually became 
the acting commander of CENTCOM under the counterinsurgency 
policy. And my understanding is we employ that kind of strategy 
so that we can come to the diplomatic and political solutions 
that she was just talking about. The idea is that we have some 
space to maneuver so that parties can come together and we can 
come to a governing solution that is reasonable for all 
involved.
    Can you share with us your time there? Why was it 
successful? Why was the counterinsurgency strategy in Iraq 
successful?
    General Dempsey. Well, you know, I think that the 
counterinsurgency strategy is effective when the lines of 
effort that the Secretary outlined at the beginning are 
applied, not just the military instrument. And, as you know, in 
those years, when there was not much else going on in the 
world, actually, we invested enormous resources into that 
effort.
    I don't think you are suggesting--I guess I should probably 
ask if you are suggesting whether we should make that kind of 
commitment again. Rather, it seems to me that we are trying to 
accomplish the objectives of a counterinsurgency but adapting 
based on what we have learned to ensure that most of that 
lifting is done by regional partners and by the Government of 
Iraq itself.
    Mr. Bridenstine. I am not suggesting that we return to 
counterinsurgency in Iraq. What does concern me, though, is we 
heard over and over again from this administration that we had 
to end the gains of the counterinsurgency because we didn't 
have a status of forces agreement.
    And the reason we didn't have the status of forces 
agreement, according to the administration, is that they 
couldn't get it ratified by the Iraqi Parliament. We have heard 
that over and over again. Now, somehow, even though we had to 
leave because we didn't have a status of forces, now all of a 
sudden we are putting thousands of troops back.
    Can you tell me today, do we have a status of forces 
agreement?
    General Dempsey. No, we do not, but we have diplomatic 
notes that guarantee the immunities and protections. And, by 
the way, we have 3,500 service men and women on the ground, so 
it is a much different order of magnitude.
    Mr. Bridenstine. So, originally, then, when we did the 
counterinsurgency, since there wasn't an Iraqi Parliament, we 
didn't have a status of forces agreement? Or was that just an 
exchange of diplomatic notes as well?
    General Dempsey. I don't know the answer to that. I can 
take that for the record. You are talking about back in 2011?
    [The information referred to can be found in the Appendix 
on page 66.]
    Mr. Bridenstine. Right.
    My point is, if we can have an exchange of diplomatic notes 
and sustain the gains that we had from the counterinsurgency--I 
think it was Mr. Moulton that talked about the blood-bought 
gains. I mean, this is very difficult for us as a Nation. If we 
can do that with an exchange of diplomatic letters, then why 
wouldn't we do that with an exchange of diplomatic letters 
instead of, you know, just saying, well, the Iraqi Parliament 
won't ratify it, therefore we have to leave immediately? And 
then, all of a sudden, everything that we fought to achieve, 
including me, including you, it seems to all be for naught.
    This is a lesson--we can't go back and unwind what has 
already happened, but we have to be cognizant of this as we go 
forward because these kind of conflicts are going to happen 
again. And the Commander in Chief needs to make a decision that 
he doesn't get to change the policy that came before him. We 
have to make decisions that we inherit the policy from our 
predecessor. We have to make decisions in the best interest of 
our country, regardless of whether or not it was his war to 
begin with.
    That is my point in all this.
    General Dempsey. Yeah. The only thing I would add is that 
you would have to concede we have a much different partner in 
Prime Minister Abadi than we did in Prime Minister Maliki.
    Mr. Bridenstine. That is correct. It was also true that 
Prime Minister Maliki would have wanted us to be there had we 
had the opportunity to do it with an exchange of diplomatic 
letters, which he wanted us to do. And, instead, we chose to 
reject that.
    With that, Mr. Chairman, I will yield back.
    The Chairman. Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    Secretary Carter and General Dempsey, you certainly have 
tremendous challenges on your shoulders, and I thank you for 
your service.
    This question that I am going to ask I think both of you 
may have comments on.
    As we have announced additional deployments of service 
members back to the Middle East to enhance the train and the 
equip mission, I have become really troubled about the effects 
it will have on the readiness of our total force. Instead of 
sending complete units, it appears that we are deploying 
piecemeal components and a disproportionate contingent of 
senior personnel.
    So I am concerned that the portion of the unit that remains 
at home station or in training will be relegated to preparing 
only for small-unit operations instead of being able to train 
for full operations.
    Now, how will we mitigate this and ensure our 
reconstituting units will get the training they need to recover 
their readiness? That is the first part of the question.
    And, secondly, also, will we consider changing the model 
for how we generate forces for small-scale operations?
    Secretary Carter. Excellent questions, Congresswoman. Thank 
you. And I will start and then ask the Chairman to--pitch it 
his way.
    You are absolutely right. When we send in an enabling 
force, we tend to take certain elements, including the command 
element, out of a larger unit--a brigade or a division even, 
headquarters--and deploy it forward, because that is the only 
part of the force that we need, and the rest stays behind. That 
is a readiness dilemma for, in this case, the Army. And I know 
the Army works very hard on that, but it is as you say.
    And so the second part of your question is, are we thinking 
of ways of--I forget how you put it, but systemizing and 
dealing with the readiness----
    Ms. Bordallo. Yes.
    Secretary Carter [continuing]. Issues associated with it. 
Absolutely, we are. I know that Secretary McHugh and General 
Odierno are. I have discussed that with them.
    The Chairman, in addition to being the Chairman, was also 
the Chief of Staff of the Army, and perhaps he would comment as 
well.
    Ms. Bordallo. Thank you.
    General Dempsey. Yes, Congresswoman. We are adapting our 
global force management process to account for the fact that, 
as I mentioned earlier, for the first time in a very long time, 
we have both the issue of dealing with potential threats from 
state actors and from non-state actors.
    So, though it is always our instinct to apply coherent 
units--that is to say, units that have been organized, trained, 
and equipped and had a long relationship with each other--we 
are going to have to find ways to account for our global 
challenges with a hybrid solution to global force management.
    But, you know, frankly, we are a much different Army, I 
will use, in 2015 than we were in 2003 when this all began. And 
we can figure it out. But we would be happy to describe for you 
how we intend to approach that.
    [The information referred to can be found in the Appendix 
on page 65.]
    Ms. Bordallo. Thank you.
    Thank you very much, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    And thank you, gentlemen, both for being here.
    You know, as I sit here and we go through all this, I just 
can't help but reflect, as one of the couple hundred thousand 
who served in Iraq and saw us go on to victory, to just have my 
stomach turn when I think of my friends that were killed in 
certain areas that are now under control of ISIL. And it is 
very difficult to sit and watch what is taking place today.
    Today, we have also a possibility of a resolution being 
brought forward that asks for the removal of all U.S. troops 
from Iraq or Syria. What do you think the Middle East would 
look like if we did that, and what effect would it have on our 
national security?
    General Dempsey. That would be a mistake, Congressman, for 
obvious reasons. We have United States national security 
interests within Iraq, and we also have United States national 
security interest in maintaining credible, safe, and reliable 
allies in the region. And our withdrawal from this issue would 
challenge and put us at greater risk over time, no question 
about it.
    Dr. Wenstrup. I would agree with you on that note.
    I have another question concerning our counter-messaging 
and our humanitarian efforts. Obviously, I think those are key 
components to whatever military mission we are engaged in.
    Is it helping with the recruitment on the local level for 
our allies in this fight? Is our counter-messaging having an 
effect? You know, we talk all the time about the messaging of 
ISIL and the social media, et cetera, et cetera. Is our 
counter-messaging helping recruit those that will be in the 
fight with us?
    Secretary Carter. The honest truth is that, at the moment, 
our counter-messaging is the truth. We don't have particular 
ways of getting on social media and propagandizing the way ISIL 
does, and I don't think you are suggesting that we should do 
that.
    Dr. Wenstrup. No, I am asking you----
    Secretary Carter. But we do----
    Dr. Wenstrup. You mentioned counter-messaging earlier. I am 
just asking you what that looks like.
    Secretary Carter. Exactly. And I understand the drift of 
your question.
    And the critical form of counter-messaging by America gets 
back to the word the Chairman started with, which is 
``leadership.'' When we step up and indicate that we are in the 
game, we are not substituting for the game but we are in the 
game, whether it be here or anywhere else--I was just in 
Southeast Asia last week--there is a hunger for American 
leadership. We have played that role for decades in many parts 
of the world. Same thing is true in Europe. And I think that 
the best message we can give against all of these threats to 
our friends and allies is one of resolve and steadiness.
    You made an earlier reference to continuity over time. I 
think that is important, as well. The steadiness of American 
leadership. And it gets back to all the things--we had a 
conversation about the budget earlier. I believe we need 
steadiness there, as well. And that is the best kind of--for 
heartening our friends and getting them to do more, that is the 
best kind of counter-message we can have.
    Dr. Wenstrup. And what about the humanitarian side that was 
mentioned as well? I mean, I look at how we really turned the 
tide in Iraq before, and part of that was our humanitarian 
efforts, where I saw the people of Iraq began to trust us more 
than their own government because of the way we lived with them 
and we endured what they endured and we offered medical relief 
and things like that.
    Are we doing things like that? Is that part of our 
humanitarian effort that wins over the hearts and minds of 
people that we need if we are going to be successful?
    Secretary Carter. It is. I don't think we have had the full 
opportunity to deploy that. When we begin to take back 
territory, I think the gist of your question is, we need to 
help the Iraqis who do that to restore services, make sure 
people are getting food, power, all these things that just make 
up normal life.
    That has to be the sequel to a military defeat of ISIL. 
Otherwise, the tide will just turn back again. And that is 
essentially--again, now, we are not going to try to do that all 
by ourselves, but I think that we will, as we enable the fight, 
we need to enable the aftermath, as well.
    And to get back to your part about partners and--many of 
the partners and allies are very willing to do that, and they 
have some experience in doing that, including in Afghanistan. 
Some of our European friends and allies, for example, would be 
very willing. It is not like the United States has to bear the 
whole burden there.
    Dr. Wenstrup. No, I agree. And I hope that we do deploy 
those measures, which can be helpful to us.
    Thank you. I yield back.
    The Chairman. Mr. Ashford.
    Mr. Ashford. Thank you, Mr. Chairman.
    And thank you, General Dempsey and Mr. Secretary.
    A little on topic and probably has been asked and answered 
a couple of times, but when I was in Iraq with Congressman 
Moulton, he asked a question that he asked today several times, 
and it is a compelling question.
    There was quite a bit of optimism when we were there in 
February. It had to do primarily with the fact that in June 
there would be an operation in Mosul and so forth and so on. 
One of the factors that was--but much has changed since then, 
obviously, and you have addressed that.
    One of the--for me, and what I reported back to Nebraskans 
was that I saw the emergence of, to some degree, leaders in the 
Arab countries who were ready to stand up and try to unify 
these groups in a less sectarian manner. And King Abdullah of 
Jordan was one of those. And it was very, to me, at least, 
someone who is new to this, it was a very optimistic kind of a 
report. He talked about his idea of bringing Sunni leaders 
together, I think, in that time in April or so.
    But, since that time, obviously, the Jordanians have been 
impacted by significant challenges, not the least of which are 
the refugees and some of the Al Qaeda issues for them.
    Number one, I guess, my question, Mr. Secretary, would be, 
how are things going with Jordan? And do you see that sort of 
exceptionalist kind of approach that he was taking being able 
to move forward?
    And I apologize if this has been asked before, but----
    Secretary Carter. No, it is a key question that was alluded 
to before, but you are hitting the nail on the head, which is: 
Where are the other, particularly Sunni-aligned powers in the 
region in this fight which is essentially for a big swath of 
Sunni territory by a group where religion is the center of 
their political ideology?
    And, in the case of Jordan, there is no question about 
that. The level of insight and commitment by the King and the 
tremendous support he has in Jordan, in part because of the 
tragic burning of his pilot----
    Mr. Ashford. Right.
    Secretary Carter [continuing]. He is all in and a very 
committed partner. And we are doing everything we can to work 
with him. The refugees are a challenge to a small country like 
Jordan, so definitely a worry.
    When we had the GCC countries here in Washington about a 
month ago, they were raising issues in their region, including 
Iran, which they are very concerned about. So we were talking 
about Iran as well, but we were also saying, hey, it is not 
just Iran, there is ISIL as well, and you are uniquely 
positioned to play a greater role in this campaign.
    Mr. Ashford. Right.
    Secretary Carter. And they indicated some willingness to do 
so. I think, at the moment, we are trying to help them build 
the capacity to do so, because most of them don't have the 
ground forces that could participate, in principle, in the 
campaign in Iraq and may be more acceptable than outsiders.
    Mr. Ashford. And, obviously, at that time, we were talking 
about the training mission which is being undertaken, and you 
have talked about that, and you are doing more of that.
    To me, it seemed then and does now, as well, listening, 
that you can--obviously, there is a military objective, and 
that has to be followed through with. But it isn't--maybe I am 
wrong, but it isn't so much that we have to wait until the 
military objective is absolutely done, that there is also a 
parallel course of bringing these other leaders together to try 
to find a more political solution.
    It seemed to me, when I left, that was what I was hearing. 
It has to be parallel. You can't just go from one to the other. 
It has to be sort of a parallel thing.
    There is only a few seconds, but if you could comment on--
--
    Secretary Carter. I completely agree with that. Another way 
of saying it is, all the lines of effort of the strategy have 
to be synchronized. And the political and the military, in 
particular, need to be synchronized.
    Mr. Ashford. Thank you.
    The Chairman. Thank you.
    Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you, gentlemen, for sustaining for the long haul here 
today.
    I do want to say that I do have serious concerns about what 
appears to be an incoherence in our regional strategy related 
to Iran specifically, where we are marching towards a nuclear 
agreement with them yet we are supporting Saudi Arabia, their 
striking, their influence, and the Houthis in Yemen, yet Qasem 
Soleimani is leading the ground offensive to take back Tikrit 
while we are providing the air force. No wonder why our Sunni 
partners, you know, are concerned about the incoherence there.
    So I know a lot of that is you are participants but you are 
not fully responsible for, but I just want to, you know, say on 
the record that I think that incoherent strategy is impacting 
some of the lack of commitment of our allies in a political 
nature, specifically in Iraq.
    But I want to focus my questions on specifically the 
targeting and the air campaign in Iraq. I just led a CODEL 
[congressional delegation] over to the region, met with the air 
component commander, met with the JTF [Joint Task Force] 
leadership. They felt like ISIS was on the defensive, and then 
a couple weeks later, obviously, Ramadi fell. And I have been 
involved in the targeting process at the COCOM level down to 
the pilot, and so I am concerned.
    And I know you mentioned we are hitting all the targets we 
have except for when collateral damage is a factor, General 
Dempsey. And I want to quote General Deptula's--who is the 
smartest guy in airpower, I think, in our generation--op-ed in 
The Washington Post--and I will do it quickly--a couple weeks 
ago:
    ``The fastest way to end the inhumanity of war is to 
eliminate its source--in this case, the Islamic State--as 
quickly as possible. Gradualism doomed the effectiveness of air 
power in the `Rolling Thunder' air campaign [during the] 
Vietnam [War]. The current gradualist approach is worsening the 
suffering and increasing the loss of innocent life. While 
unintended casualties of war are regrettable, those associated 
with airstrikes pale in comparison with the savage acts being 
carried out by the Islamic State. What is the logic of a policy 
that restricts the use of air power to avoid the possibility of 
collateral damage while allowing the certainty of Islamic State 
crimes against humanity,'' is the question he poses.
    I think it is a very valid line of argument. If we are 
trying to avoid one civilian casualty, yet in not hitting a 
legitimate target we are allowing the Islamic State to continue 
to commit atrocities and murder against the people on the 
ground, how do we balance that?
    So my question is--and you may need to answer this in a, 
you know, classified manner. What percentage of the strike 
sorties are coming back with their munitions on board, as just 
an indication of kind of our limitations?
    And how many targets have we actually identified? We have 
gone through the PID [positive identification]; we have a valid 
target. But we actually haven't struck them specifically 
because of the collateral damage limitations that are much 
tighter than the law of armed conflict requires or because the 
approval process takes so long we just are unable to hit it. 
So, you know, what is that number? How many are we not hitting 
that are legitimate targets because of this extreme constraint 
that we are putting on for collateral damage?
    General Dempsey. First, for the record, let me tell you, I 
couldn't disagree more with retired General Deptula. And I 
would say that both as General Dempsey, as Chairman Dempsey, 
and, at some point in the future, Citizen Dempsey.
    Ms. McSally. Okay.
    General Dempsey. Okay?
    Secondly, the targeting that we do is based on 
intelligence, and we fuse, as you know very well, we fuse 
HUMINT [human intelligence], we fuse SIGINT [signals 
intelligence], and we----
    Ms. McSally. Yep. So I am saying we have the PID. We have 
the PID, but now we don't strike because of the CDE [collateral 
damage estimate].
    General Dempsey. Right. That is right. And that decision is 
made by the commander on the ground. And----
    Ms. McSally. So do we have a number, though? You know, it 
is 80 percent or 20 percent don't get hit because of CDE, not 
because of PID.
    General Dempsey. I would like to answer you in a classified 
version----
    Ms. McSally. Okay.
    General Dempsey [continuing]. Because I think we don't want 
to signal our enemies on how they might avoid being struck.
    [The information referred to can be found in the Appendix 
on page 66.]
    Ms. McSally. Well, it just gets to the indication of 
whether this is the thing that is really allowing us to not 
achieve our objectives.
    General Dempsey. I do not--in my judgment, this is not the 
limiting factor.
    Ms. McSally. Okay. Fair enough.
    The next question I want to follow up--we talked about it 
earlier. As you mentioned, we have over 1,600 pilots flying 
every day, could have an engine issue. And then we have a 
potential pilot being captured, with the potential fate of the 
Jordanian pilot.
    As I was visiting the theater, visited some of our combat 
search and rescue forces there, but they remain outside Iraq, 
primarily because of limitations of boots on the ground. And 
responsiveness is really important for combat search and rescue 
to be able to scoop them up right away.
    So we are allowing 450 more advisors to go in Iraq, but we 
are not allowing our combat search and rescue forces to go in 
Iraq. Have you advised the administration to move them there 
and they are not taking your advice? Or are you comfortable 
with them being so far away with that increased responsiveness?
    General Dempsey. That is a great question. At this point, 
they are operating from locations outside of Iraq, and they 
can, and they can loiter, and we are not taking any more risk 
at that point.
    If we go into the point where we were going to accompany 
the Iraqi security forces that will require not just--that is 
why it is important--you know this, but it is important to 
understand, this is not just about putting three JTACs forward. 
It is about putting a medevac [medical evacuation] capability 
and a combat search and rescue, a personnel recovery 
capability, and a QRF [quick reaction force]. And so 15 people 
might require 150.
    Ms. McSally. Right. But one F-16 pilot deep into Syria 
needs that same responsiveness, so----
    General Dempsey. Right. But we have PR [personnel recovery] 
in hand right now. If we expand this at some point, we will 
have to address it.
    Ms. McSally. Okay. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Very good questions.
    Mr. Norcross.
    Mr. Norcross. Thank you, Mr. Chairman.
    And somebody has to be last. And certainly appreciate your 
service.
    I just want to follow up--right where you are sitting, we 
had King Abdullah here. Actually, it was the day after they 
released the video of his pilot being burned to death. You can 
imagine his attitude. But he made a couple points that 
resonated with me through today.
    One is that this is our fight, indicating that it is not 
going to be Christian or Muslim that they had to fight. 
Certainly, they want our help, and we are doing that. But 
something that really stuck with me to this day is ``I have 
been fighting this fight for 1,400 years''--1,400 years.
    So it sort of reminds me, what we are following the steps 
here is, if anybody has been to an old arcade, it is called 
Whac-A-Mole. You hit them here, they come up over here.
    This is the question I am going to: What is considered a 
win? Much of the discussion today has been around Iraq, but 
those lines are simply lines on a map. This is about the Middle 
East. What do you see as a win? Is it geographically based? And 
is it short-term? Where are we in 5 to 10 years? What is a win 
when we are discussing the Middle East and in particular with 
ISIL?
    Secretary Carter. Well, I think that--and this gets back to 
the previous question about how complex and varied are the 
problems of the Middle East. The way we ground ourselves in our 
strategy is in American national interests. And so, in these 
different circumstances, we are trying to pursue our interests.
    Our interests in the particular fight against ISIL are to 
stop this movement from becoming something that endangers 
friends and allies and therefore our interests in the region or 
that is capable of striking the homeland.
    So success in the campaign would be eliminating not every 
mole, to use your metaphor, but every mole hole and make it 
such that there is no safe haven for the kind of savagery that 
ISIL represents and from which it can continue to destabilize 
places like Jordan or even further afield.
    I think that is what we are trying to accomplish. And it is 
difficult, it will take some time, but that is what the 
strategy is about in that particular region for that particular 
problem.
    But this is a varied region, and there are other problems 
as well. We have talked about Iran as a challenge. So this is 
one but not the only one.
    Mr. Norcross. General, just to follow up on that, from a 
strategic planning perspective, we can take out the hole, as 
you mentioned, but don't we have to look at this long-term? And 
we want to make sure you have the tools that are needed.
    But this is long-term, ongoing. Because if we defeat them 
in one area, they are going to regather and come up in another 
area, thus the 1,400-year fight that the King was reflecting 
on.
    Do you see this as an ongoing?
    General Dempsey. Congressman, I absolutely do and have said 
so at every opportunity. And that is why we need to put 
ourselves on a sustainable footing across this challenge that 
runs from Afghanistan and, we could certainly argue, all the 
way over to Nigeria--a sustainable footing that allows us to 
keep pressure on this network, to build partners to keep 
pressure on the network, and to make regional stakeholders, who 
have a lot more to gain or lose than we do, in the lead of it. 
And that is the path we are on.
    Mr. Norcross. So predictability from America----
    General Dempsey. Budget predictability----
    Mr. Norcross [continuing]. That your friends are going to 
be there and continue to be there, not----
    General Dempsey. Absolutely. And, by the way, I don't want 
to turn it into a budget hearing, but predictability in a 
budget would help us accomplish that.
    Mr. Norcross. When we were over in the UAE, that is what we 
were hearing, is they are seeing that America potentially could 
walk away from their commitment or their friends in the area. 
And that is the last thing we want to see. So predictability is 
the single most stabilizing force; would you agree with that?
    General Dempsey. I would say predictability and 
perseverance.
    Mr. Norcross. Thank you.
    And I yield back.
    The Chairman. Thank you.
    Gentlemen, I appreciate it.
    Mr. Secretary, the thing I wrote down that I kept thinking 
about throughout today was, ``Hope is not a strategy.''
    And so I hope we have thousands of Sunnis who flood into 
the training that we are going to do, that get energized to go 
fight ISIL, but we have a--there are concerns about whether 
they are going to do that and trust the central government.
    We have a provision in our bill that says, unless you can 
certify that Iraq is an inclusive government, then we can 
directly arm the Sunni tribes and the Kurdish Peshmerga.
    Again, hope is not a strategy, and hoping for an inclusive 
Iraq with Sunnis joining the fight, you know, I hope it 
happens, but if it doesn't happen pretty quick, obviously, we 
can't have ISIS continue to grow.
    And then, on a similar note, I would hope we would have 
defense budgets grow at a predictable 5 to 7 percent every year 
for the next 10 years, and not only that you all but the 
industrial base could plan on that, and it would be a much 
better, more efficient system.
    On the other hand, we are not in that world right now. And 
if the President chooses to veto two defense bills, an 
authorization and an appropriation bill, that provide exactly 
as much money as he asks for, because he doesn't like the label 
on some of the money or because he wants to put more money--or 
leverage it for more money for the IRS [Internal Revenue 
Service] or the EPA [Environmental Protection Agency], that is 
going to have serious consequences for our military, because 
that will mean we are at a CR [continuing resolution] for the 
rest of the year.
    And so I hope that not only you two who have to deal with 
the real world but the President, as well, can use hope not as 
a strategy but look at the real-world consequences of some of 
these decisions. Because as we have affirmed several times 
today, this is a very complex, long historical background of 
problems in this part of the world. We have to deal with it as 
we find it, not as we hope it would be.
    You all are welcome to comment. You don't need to. But that 
is just my parting thoughts after having been here.
    Let me ask all----
    Secretary Carter. I would only say, Chairman, because it is 
my favorite phrase, that I think in this, as in every other 
part of the world, we need to be practical and, where 
practical, turn hope into reality. But practical, that is the 
meaning of that slogan. And I think I am just echoing what you 
just said.
    The Chairman. No, it is a great point. And how do you get 
from a hope to reality? It is a strategy. And that is why we 
had this hearing today, to talk about how we get from what we 
hope it will be from where we are today. And it looks like a 
long, winding, very difficult road in the Middle East.
    Let me ask all our guests to remain seated so that the 
Secretary and the Chairman and their party can make their way 
out. We have held you longer than we intended. And so, if 
everybody will stay seated for just a moment while our 
witnesses depart.
    Again, thank you all for being here. We will look forward 
to other engagements.
    With that, this hearing stands adjourned.
    [Whereupon, at 12:43 p.m., the committee was adjourned.]

?

      
=======================================================================



 
                            A P P E N D I X

                             June 17, 2015

=======================================================================

      

?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 17, 2015

=======================================================================

      

      
    [GRAPHIC] [TIFF OMITTED] T5315.001
    
    .eps[GRAPHIC] [TIFF OMITTED] T5315.002
    
    .eps[GRAPHIC] [TIFF OMITTED] T5315.003
    
    .eps[GRAPHIC] [TIFF OMITTED] T5315.004
    
    .eps[GRAPHIC] [TIFF OMITTED] T5315.005
    
    .eps[GRAPHIC] [TIFF OMITTED] T5315.006
    
    .eps[GRAPHIC] [TIFF OMITTED] T5315.007
    
    .eps[GRAPHIC] [TIFF OMITTED] T5315.008
    
    .eps[GRAPHIC] [TIFF OMITTED] T5315.009
    

.eps?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             June 17, 2015

=======================================================================

      

      

            RESPONSE TO QUESTION SUBMITTED BY MR. THORNBERRY

    Secretary Carter. Section 344 of the National Defense Authorization 
Act for Fiscal Year 2014 placed a limitation on the availability of 
funds for U.S. Special Operations Command's (USSOCOM) Trans Regional 
Web Initiative (TRWI), which maintained several regional influence 
websites directed at countering violent extremist propaganda, 
decreasing recruitment, and mitigating other malign adversary online 
activities. This section allowed funding solely to terminate the 
program or transition it to another department or agency. In response, 
the Department proposed to reprogram some of its operation and 
maintenance funds to enable each command to operate regional websites, 
rather than having TRWI as a centrally managed USSOCOM program. The 
House Appropriations Committee, in response to this reprogramming 
request, objected to reprogramming except for the limited purposes of 
transitioning to a non-DOD agency or terminating the activity. 
Therefore, the Department terminated this program in April 2015.   [See 
page 18.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MRS. DAVIS
    Secretary Carter. The safety and security of U.S. Embassy personnel 
in Baghdad is of the utmost importance to the President and the 
Departments of State and Defense. The Embassy staff is performing vital 
work under difficult circumstances, and their efforts are necessary to 
assist the Government of Iraq in making progress on reconciliation, 
which will turn Sunni communities away from ISIL. I refer you to the 
State Department for additional updates on the work that the Embassy is 
undertaking.
    The Department of Defense, along with the Department of State, 
continues to review the mission and the resources required to ensure 
that U.S. Embassy staff in Baghdad remain safe and secure. An example 
of this vigilance occurred last summer when we balanced drawing the 
Embassy down to mission-critical personnel against adding additional 
forces to ensure adequate security for the Embassy. During that time, 
the Ambassador and other Embassy personnel on the ground in Baghdad 
were vital in supporting Iraq as it formed a new government in Baghdad 
in record time.   [See page 17.]
                                 ______
                                 
            RESPONSE TO QUESTIONS SUBMITTED BY MS. BORDALLO
    General Dempsey. Our forces today continue to be engaged globally 
and the future will likely not provide any respite. Better management 
of our force is essential in order to avoid assuming unacceptable risk. 
Based on the increasing proliferation of state and non-state actors, 
the resource and demand imbalance the Department of Defense faces, the 
decreasing size of military forces, and the readiness challenges we 
continue to wrestle with I directed that we adapt our approaches to 
global force management (GFM). I directed the establishment of 
readiness thresholds to inform force availability decisions, the 
development of options that would allow the Department to be more agile 
in the employment of forces, the more frequent updating of our force 
availability data, and an assessment of how we posture forces forward 
to ensure best mitigation of risk.
    Significant improvements in the way the Department's global force 
management approaches include the following:
    <bullet>  Re-establishing resource-informed readiness thresholds 
that allow the services to build and sustain the future readiness.
    <bullet>  Informing Combatant Commands of the forces they can count 
on during Phase 0, day-to-day, as the Department consistently addresses 
its highest priorities.
    <bullet>  Improving the Department's visibility of force generation 
capacity in order to make better recommendations to the President.
    <bullet>  Updating the criteria and processes we utilize to 
identify and adjudicate the posturing of forces forward. In each of 
these areas we have made great strides in reforming the Department's 
approaches to global force management and these improvements will be 
codified in the Department's force implementation guidance later this 
summer. Once this guidance document is complete the changes to the 
global force management process should place the Department on a 
sustainable path.   [See page 41.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. COFFMAN
    General Dempsey. First, let me note that we provide close air 
support to Iraqi forces on a daily basis with our advisors in Iraqi 
operations centers. In terms of supporting Iraqi offensive operations, 
I would recommend the use of U.S. ground forces when engaging strategic 
targets in order to accomplish strategic effects in support the Iraqi 
ground forces. Employing Forward Air Controllers could be effective, 
but are not our only means to provide close air support to ground 
forces. However, I do not recommend putting U.S. forces in harm's way 
simply to stiffen the spine of local Iraqi forces.   [See page 34.]
                                 ______
                                 
           RESPONSE TO QUESTION SUBMITTED BY MR. BRIDENSTINE
    General Dempsey. In 2011, U.S. Forces did not have a Status of 
Forces Agreement with Iraq. U.S. military personnel were protected by 
an exchange of diplomatic notes codifying the 2008 Security Agreement 
on the Withdrawal of U.S. Forces from Iraq and the Organization of 
Their Activities during Their Temporary Presence in Iraq.   [See page 
39.]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MS. McSALLY
    General Dempsey. U.S. sorties are flown to conduct both deliberate 
strikes with pre-planned targets and dynamic strikes where the aircraft 
engages targets only if they are presented. From the commencement of 
airstrikes on 8 Aug 14 to 1 Jul 15, only 7% of aircraft flying 
deliberate strike sorties returned without expending their ordnance. 
Approximately 63% of aircraft flying dynamic strike missions returned 
without expending munitions. This percentage has stayed relatively 
constant since combat operations commenced. Of note, during a 
comparable timeframe in Afghanistan, 83% of aircraft flying dynamic 
strike missions returned with their munitions.
    Targeting and dynamic engagements are by nature fluid processes. 
Aircraft conducting dynamic targeting missions are present to deliver 
ordnance on targets should the opportunity arise--targets are not 
programmed prior to the mission so employment of ordnance is not 
guaranteed. Beyond the type of mission flown, other factors reduce the 
number of munitions employed, such as adverse weather, lack of positive 
identifications, not having the right type of weapons for the target 
type and the ever present collateral damage concerns.
    Strike aircraft can and do supports ground forces even without 
dropping ordnance. Aircraft are able to conduct should of presence 
missions and provide valuable armed over watch in support of ground 
forces. Aircraft flying dynamic targeting mission are often able to 
achieve desired outcomes without dropping ordnance.   [See page 45.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 17, 2015

=======================================================================

      

      

                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. In July 2005, Ayman al-Zawahiri was second in command 
of Al Qaeda, second only to Osama bin Laden, when he sent a lengthy 
letter to Abu Musab al-Zarqawi, the leader of Al Qaeda in Iraq (AQI). 
This letter proposed a four phase plan for Iraq that al-Zarqawi's 
organization was to carry out. That plan was prepared as follows:
    1. Expel the Americans from Iraq. 2. Establish an Islamic Emirate 
in Iraq. 3. Extend the Jihad wave to the secular countries neighboring 
Iraq. 4. The clash with Israel, because Israel was established only to 
challenge any new Islamic entity.
    The United States learned of this letter's existence by October of 
that same year, and Zarqawi was killed the following summer. As we know 
though, his organization has survived and morphed into what we know 
today as the Islamic State of Iraq and the Levant (ISIL).
    Their actions over the past year; indiscriminate killing of 
dissenters, destruction of historical artifacts, and land grabs in the 
same regions AQI attempted to control a decade ago show that their plan 
has not changed.
    When the Administration rushed to depart Iraq in order to maintain 
a campaign promise rather than properly assess the security situation, 
we helped them accomplish phase one.
    Mr. Secretary, we have known ISIL's plan for at least a decade, how 
have we not developed a coherent strategy to thwart the advances of 
this Islamic terror organization?
    Secretary Carter. I believe we have the right strategy to degrade 
and ultimately defeat ISIL. It will take time to achieve all the goals 
articulated in the strategy. As the President recently noted, the best 
way to achieve a lasting victory against ISIL is to work with an 
effective partner on the ground. The Department's role is to enable, 
not replace, capable and motivated ground forces to defeat ISIL.
    Mr. Turner. While I know that roughly 3,500 U.S. military personnel 
is not sufficient ``to degrade and ultimately destroy ISIL [Islamic 
State of Iraq and the Levant],'' I am concerned that this arbitrary cap 
set by the President restricts your ability to sufficiently support 
those on the ground.
    Even before the President announced an additional 450 personnel, I 
was concerned that the ``tooth-to-tail'' ratio along with arbitrary 
troop caps was either inhibiting our ability to properly deploy support 
capabilities such as combat search and rescue or preventing us from 
accomplishing advise and assist objectives.
    In your ``best military advice'' are roughly 3,500 troops on the 
ground in Iraq enough to carry out current missions and provide for 
necessary support activities? Where are we taking on additional levels 
of risk?
    General Dempsey. The current Iraq force management level (FML) of 
3550 is sufficient to support the military campaign within our current 
strategy in Iraq in the near term, appropriately mitigates risk, and 
reflects my recommendation to the President. We maintain the ability to 
provide needed support to U.S. service members through our forces both 
in Iraq and throughout the region.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. Do you believe the President has been too narrowly 
focused on the Islamic State of Iraq and the Levant given unfinished 
efforts to defeat Al Qaeda and the Taliban? How do you intend to ensure 
that any gains against a terrorist threat aren't countered through the 
augmentation or strengthening of another extremist organization?
    Secretary Carter. Although the President has directed the 
Department to focus its energies toward countering ISIL's threat, the 
Department continues to devote the resources necessary to maintain 
operations aimed at defeating al Qaeda throughout the world, enabling 
our Afghan partners to combat the Taliban-led insurgency and other 
armed opposition groups to reduce violence in their country. I remain 
committed to the objective of ensuring that neither Afghanistan nor 
Pakistan becomes a safe haven from which violent extremists can launch 
attacks against the United States or its allies or partners.
    Mr. Shuster. Since the fall of Ramadi, Iraqi Prime Minister Abadi 
has since called for Shia militias to join the fight to take back 
Sunni-dominated Ramadi. Iran has supported many of these Shia militias. 
Do you believe this has the potential to further destabilize the 
region, and how would this contribute to the growth of Iranian power?
    Secretary Carter. The decision to use the Popular Mobilization 
Forces (PMF) in Ramadi was made by the Government of Iraq in 
consultation with local leaders in Anbar Province, not at the direction 
of Iran. This was also requested by a conference of senior Anbar tribal 
leaders immediately following the fall of Ramadi. The decision received 
the full support of the Iraqi Cabinet. It is clear that the decision to 
use the PMF in Anbar is one for the Government of Iraq to make in 
conjunction with local Anbari leaders, and that is what happened in the 
Ramadi case.
    While there are some Iranian backed militias within the PMF, some 
are patriotic Shia who answered the call to duty last summer at the 
behest of Iraqi Ayatollah Sistani. There are concerns about the 
sectarian nature of Iran's approach to Iraq, and I believe this could 
become increasingly problematic as ISIL is pushed back. More broadly, I 
am concerned about Iranian malign activity in the region and have been 
clear that the Department will hold Iran accountable regardless of the 
nuclear agreement.
    As counter-offensive operations continue, the Department can 
support the operations of various types of anti-ISIL forces, but, as I 
have repeatedly said, there must be clear Iraq Security Forces (ISF) 
command and control, sound planning, and coordination wherever possible 
with local leaders.
    Mr. Shuster. What do you believe are Iran's long-term objectives in 
the Middle East? Do you believe that if the administration were to 
negotiate a nuclear deal with Iran it would reduce stability in the 
region?
    Secretary Carter. Iran probably seeks to maintain its system of 
government while expanding its influence in the Middle East and 
minimizing the West's influence. I believe that the nuclear agreement 
with Iran would increase stability in the Middle East by verifiably 
shutting off all paths to an Iranian acquisition of a nuclear weapon. 
Blocking proliferation of nuclear weapons technology is a cornerstone 
of our national security and it will be advanced by reaching an 
agreement that peacefully impedes Iran's development of a nuclear 
weapon. Nevertheless, the Department of Defense will continue 
diligently to maintain the plans, posture, and preparations for any 
Iran contingencies that should arise.
    Mr. Shuster. A number of friendly nations in the Middle East 
continue to acquire and maintain American weapons technology to help 
offset the Islamic State of Iraq and the Levant. How can we better 
leverage our industrial base in this manner to support our Middle 
Eastern allies in their fight against ISIL?
    General Dempsey. The Department of Defense is working with U.S. 
commercial companies to develop strategies to offer our coalition 
partners opportunities to acquire life cycle sustainment support for 
material purchased via Foreign Military Sales, Foreign Military Fund, 
Presidential Directive, etc. This serves to provide the necessary 
support to our coalition partners' efforts to support friendly nations 
in the Middle East while enabling the industrial base to be better 
postured for current and future global requirements.
    Mr. Shuster. General Dempsey, do you feel that your options for 
taking military action against the Islamic State of Iraq and the Levant 
and other extremist groups are limited by any current policies in 
place? What authorities or flexibility are you lacking that would 
better allow you to pursue the war against ISIL?
    General Dempsey. No. Current authorities and policies are 
sufficient to implement the military campaign as designed. In offering 
my best military advice, I will seek necessary authority and policy 
guidance as required.
    Mr. Shuster. How do we measure and define success in the campaign 
against the Islamic State of Iraq and the Levant? What metrics are you 
using to delineate success versus failure; how does that influence our 
strategy?
    General Dempsey. Success in the campaign will be seen as effective 
local anti-ISIL forces grow in capability in Iraq and Syria and 
populations reject ISIL's extremist views. We have learned from past 
experience that this is the only way to achieve a lasting defeat of 
ISIL. Progress is being made. However, we must continue to exercise 
patience during this campaign, and understand that our efforts cannot 
exceed those of our partnered ground forces in Iraq and Syria. Local 
anti-ISIL forces must own this fight. We continually assess the 
execution of the military campaign and look to strengthen and adjust 
its implementation based on changing conditions on the ground. We are 
focused on increasing the participation throughout of our training and 
equipping programs as well as the effectiveness of our efforts to 
directly degrade ISIL capabilities. In Iraq, we are attentive to the 
GOI's [Government of Iraq] initiatives to increase outreach to Sunni 
tribes. Political reform within the GOI is also a necessary component 
of our strategy. Prime Minister Abadi has taken steps to demonstrate 
his commitment to reconciliation and inclusive governance, but I refer 
you to the State Department for more detail on the political metrics.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. What threats do our troops currently face, aside from 
the Islamic State of Iraq and the Levant (ISIL)? Shia militants have 
publicly stated they will target additional U.S. forces. Is there a 
possibility of either Shia or Sunni militants attacking U.S. forces and 
distracting from the fight against ISIL? Do we believe Prime Minister 
Abadi, who is heavily reliant on Shia militants for the preservation of 
his state, would be able to rein them in?
    Secretary Carter. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. Are there potential or existing gaps in coverage 
related to Trauma-Surgical-Critical Care and Medical Evacuation of 
authorized American personnel (uniformed or civilian) as we commit more 
uniformed personnel to Iraq? How does this apply to Department of 
Defense civilians and those working on a Department of Defense contract 
in Iraq? Also, how does this apply in areas where Department of Defense 
does not have a robust footprint or the same level of trauma centers 
that were available previous to 2011?
    General Dempsey. All major operating locations within Iraq are 
supported by Role 1 primary care and Role 2 damage control surgery. 
Theater preventive medicine assets have also conducted site visits to 
accomplish required occupational and environmental health surveillance 
assessments. Medevac rings have been established to provide coverage 
for all major U.S. and Coalition operating locations within Iraq. 
Additionally, theater tilt- and fixed-wing assets are used for onward 
movement to other U.S. military medical facilities outside of Iraq. 
Coordinating activities have been established between these various 
nodes to ensure seamless, safe, and responsive patient movement. In the 
event of any future changes to the size of the U.S. force, or the scope 
of the mission, further adjustments will be made to the accompanying 
Health Service Support. Medical leadership is pro-actively engaged in 
planning efforts at all levels of command to anticipate and posture for 
such developments.
    Immediate Life/Limb/Eyesight medical care is available to all of 
the above personnel. Evacuation support is available to all DOD 
personnel, including civilians, as well as to Coalition service 
members. As is true throughout the theater, contractor personnel 
without a Secretarial Designation waiver can only be evacuated from the 
theater on a non-interference basis. Employers are responsible for 
arranging for the evacuation from theater for their employees.
    Standard medevac crews have the ability to provide blood 
transfusion while enroute and are augmented with some of the same 
enroute critical care teams that were first used with much success in 
Afghanistan. In addition to our own U.S. military capabilities, we are 
fully imbedded partners within the Department of State run Role 2 
facility in Baghdad and are also partnered with Australian and Germany 
field surgical teams co-located with U.S. Personnel elsewhere in Iraq. 
A medical Common Operating Picture of all patient care and evacuation 
assets is updated and published weekly with all U.S. and Coalition 
medical forces, in addition to a weekly Medical Coordination Working 
Group among all parties involved in Health Service Support for 
Operation INHERENT RESOLVE.
    Mr. Coffman. What resources are available in Iraq to facilitate 
Medical Evacuation of injured patients who are members of the U.S. 
Armed Forces? Are authorized Governmental Civilian Personnel or 
contracted personnel serving alongside them provided the same level of 
medical-evacuation (medevac) care?
    General Dempsey. Medevac rings have been established to provide 
coverage for all major U.S. and Coalition operating location within 
Iraq. Standard medevac crews have the ability to provide blood 
transfusion while enroute and are augmented with some of the same 
enroute critical care teams that were first used with much success in 
Afghanistan. Additionally, theater tilt- and fixed-wing assets are used 
for onward movement to other U.S. military medical facilities outside 
of Iraq. Coordinating activities have been established between these 
various nodes to ensure seamless, safe, and responsive patient 
movement. Evacuation support is available to all DOD personnel, 
including civilians, as well as to Coalition service members. As is 
true throughout the theater, contractor personnel without a Secretarial 
Designation waiver can only be evacuated from the theater on a non-
interference basis. Employers are responsible for arranging for the 
evacuation from theater for their employees.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. WALZ
    Mr. Walz. What are the risks of the United States not engaging in 
the Middle East? Furthermore, what should the role of the United States 
military be within the overall U.S. strategy in the region?
    Secretary Carter. The 2015 National Security Strategy, highlights 
the four principal guiding interests in the Middle East for the United 
States:
    (1) dismantling terrorist networks that threaten the United States, 
(2) confronting external aggression against allies and partners, (3) 
ensuring the free flow of energy from the region, and (4) preventing 
the development, proliferation, or use of weapons of mass destruction.
    If the United States limited its engagement with the Middle East, 
all four interests would be put at risk. Further, a United States 
withdrawal from the Middle East would provide opportunities for both 
state- and non-state destabilizing actors to engage in conflicts and 
spread violent ideology that would adversely affect U.S. global 
interests.
    The U.S. military provides credibility, leverage, and enforcement 
mechanisms in support of U.S. national security interests, as well 
coordination and collaboration with regional partners' militaries. 
United States engagement in the Middle East happens at many levels, and 
through many channels. The U.S. military reassures allies, builds 
stability through security partnerships, and when authorized deters or 
destroys adversaries.
    The Middle East is in period of unprecedented conflict that 
flourishes in ungoverned and under-governed spaces. Iranian malign 
influence, the rise of ISIL, and increase sectarian violence all 
threaten overall stability of the region in different ways. If we were 
to disengage entirely, the result would be increased volatility, the 
potential for all-out Sunni-Shia war, and massive humanitarian crisis. 
Our Gulf partners, along with Jordan, Egypt, and especially Israel--
each depend on U.S. presence and partnership to counter what are 
existential threats to their nations. The military is only one piece of 
the overall U.S. strategy that involves diplomatic, economic, and 
information elements. The military plays an important role in providing 
security, and more importantly in training local forces to do so for 
themselves. However, without the essential necessities of good 
government and economic development, military power cannot bring and 
keep peace as a sole instrument of power. All parts of the DIME must be 
present for lasting success.
    Mr. Walz. Given that there are nations in the region, such as the 
United Arab Emirates and Jordan, who appear to be supporting United 
States interests, how should the United States support and organize 
these partners in the region to serve as potentially moderating 
influences within the greater Middle East? Contrarily, how do Qatar and 
Turkey perceive their interests in Syria? Both are partners in the 
fight against the Islamic State of Iraq and the Levant, while at the 
same time, both nations have taken actions that work against U.S. 
policy and strategy. How should policymakers improve this dynamic?
    Secretary Carter. We enjoy strong military-to-military 
relationships with our partners in the Middle East. As our Foreign 
Military Sales (FMS) programs supply them with U.S. equipment and train 
them how to use it, they become capable partners and are assuming more 
of a leadership role in dealing with regional issues. These partners 
continually look to the United States for advice and assistance in 
developing their militaries. However, they do express frustration that 
our FMS system can be slow to meet their needs. Although we cannot 
direct these counties what to do, our FMS programs give us much access 
and a real opportunity to guide their modernization efforts.
    Qatar and Turkey have different countries with different goals and 
interests. We can improve the dynamic with Qatar by responding 
positively to their FMS requests for F-15 aircraft and developing a 
stronger, more long-term military-to-military relationship.
    Turkey, on the other hand, is already a member of NATO and enjoys 
much U.S. support and equipment. We continue to cooperate with Turkey 
on a broad range of national security concerns, including through 
mutual efforts in support of the counter ISIL coalition. Sustained 
support to these efforts, as well as continued bilateral dialogue on 
means to enhance our cooperation in confronting the myriad threats 
emanating from Syria, are critical to regional security.
    Mr. Walz. What are the risks of the United States not engaging in 
the Middle East? Furthermore, what should the role of the United States 
military be within the overall U.S. strategy in the region?
    General Dempsey. The Middle East is in period of unprecedented 
conflict that flourishes in ungoverned and under-governed spaces. 
Iranian malign influence, the rise of ISIL, and increase sectarian 
violence all threaten overall stability of the region in different 
ways. If we were to disengage entirely, the result would be increased 
volatility, the potential for all-out Sunni-Shia war, and massive 
humanitarian crisis. Our Gulf partners, along with Jordan, Egypt, and 
especially Israel--each depend on U.S. presence and partnership to 
counter what are existential threats to their nations. The military is 
only one piece of the overall U.S. strategy that involves diplomatic, 
economic, and information elements (DIME). The military plays an 
important role in providing security, and more importantly in training 
local forces to do so for themselves. However, without the essential 
necessities of good government and economic development, military power 
cannot bring and keep peace as a sole instrument of power. All parts of 
the DIME must be present for lasting success.
    Mr. Walz. Given that there are nations in the region, such as the 
United Arab Emirates and Jordan, who appear to be supporting United 
States interests, how should the United States support and organize 
these partners in the region to serve as potentially moderating 
influences within the greater Middle East? Contrarily, how do Qatar and 
Turkey perceive their interests in Syria? Both are partners in the 
fight against the Islamic State of Iraq and the Levant, while at the 
same time, both nations have taken actions that work against U.S. 
policy and strategy. How should policymakers improve this dynamic?
    General Dempsey. We enjoy strong military-to-military relationships 
with our partners in the Middle East. As our Foreign Military Sales 
(FMS) programs supply them with U.S. equipment and train them how to 
use it, they become capable partners and are assuming more of a 
leadership role in dealing with regional issues. These partners 
continually look to the United States for advice and assistance in 
developing their militaries. However, they do express frustration that 
our FMS system can be slow to meet their needs. Although we cannot 
direct these counties what to do, our FMS programs give us much access 
and a real opportunity to guide their modernization efforts.
    Qatar and Turkey have different countries with different goals and 
interests. We can improve the dynamic with Qatar by responding 
positively to their FMS requests for F-15 aircraft and developing a 
stronger, more long-term military-to-military relationship.
    Turkey, on the other hand, is already a member of NATO and enjoys 
much U.S. support and equipment. We continue to cooperate with Turkey 
on a broad range of national security concerns, including through 
mutual efforts in support of the counter ISIL coalition. Sustained 
support to these efforts, as well as continued bilateral dialogue on 
means to enhance our cooperation in confronting the myriad threats 
emanating from Syria, are critical to regional security.
    The Department of Defense remains committed to supporting the 
sovereignty and security of our Middle East partners. That is why the 
Department provides nations such as Jordan and the United Arab 
Emirates--two of our most capable partners--the support they need to 
ensure they are well-trained and equipped to meet regional threats. The 
recent U.S.-Gulf Cooperation Council (GCC) Camp David Summit reinforced 
this commitment, and the initiatives put forward at the Summit 
demonstrated more specifically how the United States seeks to support 
and organize its regional partners, including through increased 
coordination and collaboration on shared interests such as 
counterterrorism, maritime security, cyber security, and ballistic 
missile defense. The Department of Defense will continue to work toward 
establishing mechanisms and processes for more productive and 
collaborative engagements with all of our Middle East partners to more 
successfully address these shared interests.
    The Department continues to cooperate closely with both Qatar and 
Turkey in areas of mutual concern, including through the counter-ISIL 
coalition. Development of increasingly collaborative U.S.-Middle East 
partnerships provides channels of opportunity through which the United 
States can better leverage shared regional interests and influence our 
partners' efforts. These partnerships serve as a moderating influence 
in the countries and across the region. Turkey and Qatar share the 
United States' interest in defeating ISIL, seeing a political 
transition in Syria, and bringing stability to Iraq. The United States' 
relationship and alliance with these two countries remains strong. The 
Department maintains a close and constructive dialogue with both 
countries on how to increase mutual efforts towards these goals.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
